Federal Deposit Insurance Corporation

Office of
Inspector General
Semiannual
Report
to the
Congress




                                        April 1, 2000 - September 30, 2000
The Congress
created the
Federal Deposit Insurance Corporation
(FDIC) through the Banking Act of 1933 to
provide protection for bank depositors and
to foster sound banking practices. The
FDIC insures deposits at more than 10,100
of the nation’s banks and savings associa-
tions. In cooperation with other federal
and state regulatory agencies, the FDIC
promotes the safety and soundness of
these institutions and the U.S financial
system by identifying, monitoring, and
addressing risks to which the deposit
insurance funds are exposed.
                                             The FDIC Office
                                             of Inspector
                                             General (OIG)
                                             accomplishes its
                                             mission by con-
                                             ducting inde-
                                             pendent audits,
                                             investigations,
                                             and evaluations and by keeping the FDIC
                                             Chairman and the Congress fully and currently
                                             informed of the FDIC OIG’s work. Five core val-
                                             ues drive the work of the OIG: independence,
                                             effectiveness, integrity, quality, and respect.

                                             The FDIC OIG acts as an agent of positive
                                             change, striving for continuous improvement
                                             in and protection of FDIC programs, operations,
                                             and management. The OIG is committed to the
                                             Congress and the American public to promote
                                             good government and to create an environ-
                                             ment where employees with diverse back-
                                             grounds have an opportunity to learn, excel,
                                             and be proud of the work they do.
Federal Deposit Insurance Corporation

Office of
Inspector General
Semiannual
Report
to the
Congress




                                        April 1, 2000 - September 30, 2000
Inspector General’s
                      AS WE ISSUE THIS SEMIANNUAL                    in financial services that, in general, do
                      REPORT, we anticipate a new                    not include insurance or real estate
                      Administration will be preparing to lead       development or investment. It also
                      the country. This Administration will pro-     requires financial institutions to establish
                      vide leadership at a time when the econ-       privacy policies and protect the confi-
                      omy appears prosperous–economic                dentiality of customer information.
                      expansion, low unemployment, low infla-
                      tion, high productivity growth, low and        Additionally, in terms of size, complexity,
                      stable interest rates, and significant tech-   and sensitivity to the global economy,
                      nological advances. Of particular interest     banks have changed greatly. As institu-
                      to us at the Federal Deposit Insurance         tions have been consolidating, huge con-
                      Corporation (FDIC) is that the banking         glomerates, often called “megabanks,”
                      industry itself is currently strong, having    have been created. Banking activities
                      survived the tumultuous years of crises        related to cyber-banking, electronic cash,
                      in the 1980s and escaped the potential         and other highly technical financial deliv-
                      negative effects of the coming of Year         ery systems also pose increasing risks to
                      2000. The new Administration will take         the safety and soundness of the industry
                      office undoubtedly with a keen interest in     and the deposit insurance funds.
                      sustaining the health of the economy,
                      leveraging the value of technology, and        Information technology is not only
                      maintaining public trust in federal sys-       changing and modernizing the way
                      tems and activities. The American people       banks conduct their business but also
                      too want efficient government services
 Statement



                                                                     the way the FDIC carries out its mission
                      and effective stewardship of public            and related activities. The Corporation
                      resources. The FDIC Office of Inspector        increasingly depends on information
                      General (OIG) shares this vision.              technology (IT) to improve its perfor-
                                                                     mance and meet mission goals. As it
                      And while all appears to be so prosper-        spends millions of dollars each year on
                      ous, none of us can be complacent–not          technology, the FDIC needs to be sure
                      with the lightning pace of change in the       that it maximizes the return on this
                      world around us–especially evidenced by        investment. Its challenge then is to
                      the wondrous technology that impacts           ensure that modern IT management
                      every facet of our lives more and more         practices are consistently defined and
                      each day. And with the economic land-          properly implemented. These practices
                      scape and global marketplaces subject to       help ensure that IT dollars are directed
                      sudden fluctuations, the banking industry      toward prudent investments that
                      is also vulnerable to risk. So we at the       achieve cost savings, increase productiv-
                      FDIC must focus our attention on some          ity, and improve the timeliness and qual-
                      key questions: What are the current chal-      ity of the FDIC’s services.
                      lenges and risks? How should they best
                      be addressed? What risks lie ahead?            Notwithstanding the technological tools
                      What do we need to be ready for?               at work, we cannot lose sight of the fact
                                                                     that it is the workforce of the FDIC that
                      In considering the answers to these            is providing the FDIC services and work-
                      questions, we need to acknowledge              ing to maintain the stability of, and public
                                                                     confidence in, the banking industry. This
                      that banking today is dramatically differ-
                                                                     workforce has downsized significantly
                      ent from what it used to be. Enactment         over the years. Consider the following:
                      of the Gramm-Leach-Bliley Act in               about 15,600 FDIC employees in mid-
                      November 1999 created sweeping                 1992; 6,733 employees as of September
                      changes in banking law. It allows affilia-     30, 2000. As the current workforce ages,
                      tions between insured banks and finan-         new skills are needed to keep pace with
                      cial companies, including securities and       current and emerging demands, and
                      insurance firms, in new types of entities      competition for qualified individuals is
                      called financial holding companies. The        fierce. The FDIC has taken major steps
                      Act also allows national banks to form         forward by establishing goals and pursu-
                                                                     ing diversity initiatives that address the
                      financial subsidiaries that could engage       challenges of lost institutional knowledge




                                         2
and needed expertise. Continuing to            How can the Corporation prevent such          to be addressed not only at the FDIC but
effectively manage its human capital is        threats to its success?                       throughout the government.
essential to achieving results. Only when
qualified employees are on board and           It is important to note that our orienta-     In closing, I return to the notion of lead-
provided the training, tools, structure,       tion in pursuing these questions is not       ership on which I began this statement
incentives, and accountability to work         to find out what is wrong but rather to       and must bring attention to an urgent
effectively is overall organizational suc-     look for solutions and determine what
cess possible. Human capital must be an                                                      leadership matter at the FDIC. In past
                                               works best. And while many questions          semiannual reports to the Congress I
integral part of the FDIC’s strategic and      drive our work, we do not claim to have
program planning. People are an asset to                                                     have voiced the need for strong, sus-
                                               all the answers. It is for this reason that   tained leadership of the Corporation. I
be valued.
                                               while still maintaining our indepen-
                                                                                             have been concerned that one of the
                                               dence, we find it beneficial to work
Having focused on each of these areas                                                        positions of Director on the FDIC Board
                                               with others in seeking the answers.
and using a performance-based manage-                                                        has been vacant since September 1998.
ment approach, the Corporation’s biggest       Examples from the reporting period
                                               attest to the cooperative partnerships        The President has nominated an individ-
challenge is to systematically integrate                                                     ual for that position and is still awaiting
its thinking about organizational struc-       we have forged in conducting our work.
                                               These partnerships involve FDIC man-          congressional confirmation of the
tures, programs, and services; the use of
                                               agement, the Chief Financial Officer,         appointment. And now, as the terms of
technology; and human capital practices
as it makes decisions about the goals          the Chief Information Officer, the Audit      both the Chairman and the Vice
and results necessary to accomplish its        Committee, the Corporation’s Office of        Chairman of the FDIC expire this month,
mission. It needs to continuously monitor      Internal Control Management, the U.S.         there may be additional vacancies on the
its progress in achieving results and          General Accounting Office, U.S.               five-member Board, although the
refine its goals as indicated to be fully      Attorneys’ Offices, other financial insti-    Federal Deposit Insurance Act permits
successful and accountable.                    tution regulators, and members of the         these individuals to continue to serve
                                               Inspector General community.                  until their successors have been
What role does the OIG play in helping                                                       appointed and qualified. Another nomi-
to confront these types of challenges?         Assisted and supported by our col-            nee for a term as Director has also been
We take our mission seriously–quite sim-       leagues, we have achieved good                announced by the White House. Again,
ply, our business is about effectiveness,      results. Noteworthy during the period,        in light of the many pressing challenges
efficiency, and integrity. During the          our audits and evaluations resulted in
reporting period we have carried out this                                                    facing the Corporation as discussed ear-
                                               questioned costs and funds put to bet-        lier, I must underscore my hope that any
mission zealously, been proactive in our       ter use of $11 million and 74 nonmone-
approaches, and achieved results. We                                                         vacant Board positions will soon be filled
                                               tary recommendations. Our investiga-          so that the Board can operate at full
are focusing on core issues in conduct-
                                               tions led to fines, restitution, and mon-
ing our audits, investigations, and other                                                    strength as it guides the future course
reviews and seeking answers to impor-          etary recoveries of $10.7 million. We
                                                                                             of the FDIC.
tant questions that strike at the heart of     have also focused on communicating
the FDIC’s mission and goals. Questions        fully with corporate officials, the
                                               Congress, others in the Inspector             The OIG appreciates the strong support
like the following: In what ways can the
                                               General community, and law enforce-           of the Corporation and the Congress
Corporation prevent risks to the insur-
ance funds? How can the supervisory            ment entities. With respect to our inter-     over the past 6 months. We wish the
examination process best ensure safety         nal operations, we have placed empha-         new Administration well as it leads our
and soundness of institutions and guard        sis on valuing our people, improving          country and its people. We look forward
against possible fraud? Is the FDIC com-       our processes, and strengthening our          to establishing constructive working rela-
plying with legislative mandates to pro-       internal and external working relation-       tionships with all involved in this chal-
tect consumer interests? What steps can        ships, all in the interest of a positive      lenging endeavor.
the Corporation take to leverage the           and successful future for the OIG. We
value of its information technology in a       need to be open to new, better ways
cost-effective manner? Are its systems         of performing our mission and develop-
and the data they contain secure? Is the       ing our people. We do, and will con-
Corporation employing sound financial                                                        Gaston L. Gianni, Jr.
                                               tinue to, work at that.
management practices and fairly present-                                                     Inspector General
ing the condition of the funds in its finan-                                                 October 31, 2000
cial statements? Are contractors deliver-      As Vice Chair of the President’s Council
ing to the Corporation the services that       on Integrity and Efficiency with a view of
they are being paid for? How can strate-       Inspector General operations govern-
gic resources be more effectively man-         ment-wide, I am proud of our accom-
aged to achieve cost savings? Does             plishments during the reporting period. I
criminal activity exist that may harm (or      believe we are bringing our talents and
threaten to harm) the operations or the        expertise to bear on the issues that need
integrity of the FDIC and its programs?




                                                                 3
4
Table of Contents   Inspector General’s Statement

                    Overview                                                               6
                                                                                            2



                    Highlights                                                              8

                    Major Issues                                                           10

                    Investigations                                                         28

                    OIG Organization                                                       36

                    Reporting Terms and Requirements                                       44

                    Appendix I: Statistical Information Required by the Inspector
                                General Act of 1978, as amended                            46

                    Appendix II: Products Issued by the Office of Congressional
                                 Relations and Evaluations                                 56

                    Information Required Under Proposed S.870                              57

                    OIG Staff Honored at PCIE/ECIE Award Ceremony                          60

                    Abbreviations and Acronyms                                             61



                    Tables

                    Table 1: Significant OIG Achievements                                  40

                    Table 2: Nonmonetary Recommendations                                   40

                    Table 3: OIG Review of Proposed or Existing Legislation and
                             Regulations                                                   41



                    Figures

                    Figure 1: Products Issued and Investigations Closed                    42

                    Figure 2: Questioned Costs/Funds Put to Better Use                     43

                    Figure 3: Fines, Restitution, and Monetary Recoveries Resulting from
                              OIG Investigations                                           43




                                       5
                                    Major Issues
                                    The Major Issues section of our report
                                    focuses on key challenges confronting
                                    the FDIC as it works to accomplish its
                                    mission. The Corporation must address
                                    risks to the insurance funds in a com-
                                    plex global banking environment that
                                    continues to experience change and
                                    offer expanded services. At the same
                                    time, the Corporation is charged with
                                    effectively supervising the financial insti-
                                    tutions it regulates and carefully protect-
                                    ing consumers’ rights. With respect to
                                    managing and liquidating assets, the
                                    Corporation seeks to maximize recover-
                                    ies; it needs to be particularly vigilant
                                    regarding programs where large sums
                                    of money are at stake and where the
                                    FDIC does not control the entire man-
                                    agement and disposition process. The
                                    area of securitized transactions is one
                                    such example. The Corporation must
                                    also continue its efforts to pursue court-
                                    ordered restitution and other debts that
Overview




                                    it is owed. In the event of any bank fail-
                                    ures, the Corporation needs to stand
                                    ready to resolve institutions in the least
                                    costly manner.

                                    The use of information technology (IT)
                                    at the FDIC is crosscutting and
                                    absolutely essential to the
           • Major Issues           Corporation’s accomplishment of its
                                    mission. In conducting its IT activities,
                                    the Corporation’s priority must be the
           • Investigations         effective and efficient use of IT, includ-
                                    ing Internet capabilities, to achieve pro-
                                    gram results corporate-wide. It also
           • OIG Organization
                                    needs to follow sound system develop-
                                    ment life cycle procedures, comply
           • Appendixes             with IT principles espoused by legisla-
                                    tion and regulation, and ensure that
                                    effective controls are in place to safe-
           • Information Required   guard system security, an issue of con-
             Under Proposed S.870   cern raised by the U.S. General
                                    Accounting Office in its financial state-
                                    ment audit of the Corporation issued in
                                    May 2000. Given the extent of the
                                    FDIC’s contracting activities, strong
                                    controls and vigilant contractor over-
                                    sight are also critical to the
                                    Corporation’s success. Contracting for
                                    much needed IT services, in particular,




                              6
must be done in the most cost-effec-        mately $11 million. We made 74 non-           matters, and making presentations at
tive manner. For all contracting, the       monetary recommendations. Our work            corporate conferences and meetings.
Corporation needs to know that it is        targets all aspects of corporate opera-       We present a listing of proposed or
getting the goods and services for          tions and includes a number of proac-         existing laws and regulations reviewed
which it is spending millions of dollars.   tive approaches and cooperative efforts       during the past 6 months, refer to litiga-
                                            with management to add value to the           tion efforts of OIG Counsel, and also
Major downsizing over the past 5 years      FDIC (see pages 10 - 27).                     capture some of our other internal initia-
and natural attrition have greatly                                                        tives this reporting period. In keeping
impacted the FDIC workplace. As a                                                         with our goal of measuring and monitor-
result, the Corporation is vulnerable to
                                            Investigations                                ing our progress, we visually depict sig-
losses of leadership and, in some           The operations and activities of the          nificant results over the past five report-
cases, expertise and historical knowl-      OIG’s Office of Investigations are            ing periods (see pages 36 - 43).
edge. The Corporation’s continuous          described beginning on page 28 of this
diversity efforts are intended to help      report. As detailed in the Investigations
restore some of the lost talent and         section, the Office of Investigations is
                                                                                          Appendixes
skill. The FDIC must build on ongoing       reporting fines, restitution, and recover-    We list the Inspector General Act
initiatives and develop a comprehen-        ies totaling approximately $10.7 million.     reporting requirements and define
sive, integrated approach to human          Cases leading to those results include        some key terms in this section. The
capital issues. It is currently working     investigations of obstructing a bank          appendixes also contain much of the
with a vendor to help develop a             examination, embezzlement, bank-              statistical data required under the Act
process for a human capital strategy.       ruptcy fraud, computer hacking, securi-       and other information related to our
The Corporation will gain new insights      ties fraud, and identity theft. Some of       work this period (see pages 44 - 56).
from all employees as it receives their     the investigations described reflect
                                            work we have undertaken in partner-
responses to a Gallup Organizational
                                            ship with other law enforcement agen-
                                                                                          Information Required
Assessment Survey, and the FDIC will
need to respond to issues that              cies and with the cooperation and             Under Proposed
emanate from that survey in the             assistance of the FDIC’s Division of          S.870
months ahead.                               Supervision and Division of Resolutions
                                            and Receiverships. To ensure contin-          The Congress is considering amending
Not to be overlooked is the importance      ued success, the OIG will continue to         the Inspector General Act, and S.870 is
of establishing financial management        work collaboratively with FDIC manage-        the proposed legislation that lays out,
capabilities that effectively support       ment, U.S. Attorneys’ Offices, the            among other items, new reporting
decisionmaking and accountability. In       Federal Bureau of Investigation, and a        requirements for the Inspector General
that regard the Corporation’s financial     number of other law enforcement               community.
statements must accurately reflect the      agencies (see pages 28 - 35).
financial condition of the FDIC. And,                                                     The legislation would require annual,
                                                                                          rather than the current semiannual,
finally, under the provisions of the        OIG Organization                              reporting to the Congress and change
Government Performance and Results
Act, for all of these major issues, the     The OIG Organization section of our           matters to be included in that annual
Corporation must establish goals, mea-      report highlights several key internal ini-   report. In anticipation of the possible
sure performance, and report on its         tiatives that we have actively pursued        passage of S.870, we are including a
accomplishments.                            during the reporting period. The OIG’s        section in this current report with infor-
                                            internal focus has been on valuing our        mation related to those new matters
Our Major Issues section also dis-          people, improving our processes, and          (see pages 57 - 59).
cusses the OIG’s ongoing and planned        strengthening working relationships.
work to help the Corporation success-       This section of our report also refer-
fully confront these major issues and       ences some of the cooperative efforts
their associated challenges. We dis-        we have engaged in with management
cuss areas where we identified oppor-       during the reporting period, including
tunities for cost savings and recoveries    coordinating with corporate manage-
or other improvements and the recom-        ment from all divisions on annual audit
mendations we made in those areas.          planning, working with the Office of
Questioned costs and funds put to bet-      Internal Control Management on audit
ter use for the period total approxi-       resolution and risk management-related




                                                               7
             • The Office of Audits and Office of Congressional Relations and Evaluations issue
               a total of 33 reports and 20 other audit- or evaluation-related products.
               The reports identify questioned costs of $10.2 million and funds put to better
               use of $818,345. Management disallows all costs questioned.
             • OIG reports include 74 nonmonetary recommendations to improve corporate
               operations. Among these are recommendations to further strengthen the
               Corporation’s risk-focused examination process, enhance controls over payments
               to loan servicers and other contractors, implement cost control procedures for
               information technology development projects, and improve contractor oversight.
             • OIG investigations result in 2 arrests; 15 indictments/informations; 11 convictions;
               and approximately $10.7 million in total fines, restitution, monetary recoveries, and
               asset forfeitures.
             • The OIG reviews 11 proposed or existing federal regulations and legislation and 36
               proposed FDIC policies and responds to 18 requests and appeals under the
               Freedom of Information Act and Privacy Act.
             • The OIG continues efforts with the Division of Resolutions and Receiverships
               (DRR) to pursue court-ordered restitution. As of September 30, 2000, the OIG is
               conducting 54 cases that are being coordinated with DRR and involve a total of
               over $382 million in outstanding restitution orders or other types of debt.
             • The OIG and U.S. General Accounting Office continue their joint effort to audit the
               Corporation’s financial statements and issue their report on May 26, 2000. The
Highlights



               Corporation receives an unqualified opinion from the auditors. The OIG plays an
               increasingly greater role, assumes audit responsibility for major portions of the
               audit, and implements a “continuous auditing” approach for the project.
             • The OIG coordinates with and assists management on a number of projects,
               including issues related to contractor oversight, with special attention to
               information technology service contracts; addressing emerging FDIC Internet and
               Intranet privacy concerns; examining a corporate request for expenditure
               authority for telecommunications services; and reviewing the FDIC’s equal
               employment opportunity complaint process.
             • The OIG undertakes a number of internal office initiatives, including issuing our
               Long-Range Strategic Plan, implementing an expanded rotational assignment
               program, establishing a program to offer high-quality leadership training to OIG
               staff, briefing the FDIC Operating Committee on the results of the OIG’s Client
               Survey, and issuing a study of past OIG training activities to help formulate future
               training and staff development plans.
             • The OIG issues results of its Material Loss Review of the Failure of Pacific Thrift
               and Loan (PTL), reporting that PTL management did not operate the institution in
               a safe and sound manner and that the FDIC’s regulatory oversight was
               appropriately responsive to the risks associated with the institution’s activities.
             • The OIG makes recommendations to improve consistency in the Corporation’s
               Community Reinvestment Act examination procedures, use and analysis of data in
               Community Reinvestment Act reports, and quality assurance controls.
             • To help prevent incidents of fraud in financial institutions, the OIG’s Office of
               Investigations gives presentations at the FDIC’s Commissioned Examiner
               Seminars. Office of Audits also participates in a joint project with the Division of
               Supervision to review FDIC initiatives for detecting fraud during safety and
               soundness examinations.




                                      8
Highlights
     • The OIG issues a series of nine reports related to securitizations serviced by
       Ryland Mortgage Company in which we questioned over $7 million. Corporate
       management disallows all costs questioned.
     • The OIG completes the second in a series of evaluations associated with the
       FDIC’s voice and video long-distance services contract with MCI WorldCom, Inc.,
       identifying almost $1.26 million in charges that were unsupported.
     • The OIG conducts a review of FDIC Employee Use of the Internet to assist FDIC
       management in determining and implementing an effective, cost-beneficial control
       strategy for Internet use.
     • Two OIG special agents are honored by the U.S. Attorney’s Office of the Southern
       District of West Virginia for their contributions in the investigation of bank officials
       at the now defunct First National Bank of Keystone, Keystone, West Virginia.
     • As Vice Chair of the President’s Council on Integrity and Efficiency, the Inspector
       General testifies on proposed Inspector General Act amendments and statutory
       law enforcement authority before the Senate Committee on Governmental Affairs.
     • The OIG provides Senator Fred Thompson, Chairman of the Senate Governmental
       Affairs Committee, the results of its analysis of the FDIC’s 1999 Program
       Performance Report, finding that the Corporation’s performance goals relate
       directly to OIG-identified major issues and challenges and that annual corporate
       goals and reported results are closely linked.
     • In reviewing corporate performance goals, the OIG suggests that the Corporation
       consider developing an annual goal or goals related to contractor oversight. The
       Corporation agrees to do so in its 2001 plan.
     • The OIG issues its Annual Performance Plan for 2001 and Internal Resource
       Management Performance Plan for 2001.
     • An OIG Employee Advisory Group is established to communicate issues of
       employee concern to the Inspector General.




                              9
               The Corporation’s mission is a challeng-      in conjunction with the Federal Reserve
               ing one: to contribute to stability and       Board and the Conference of State Bank
               public confidence in the nation’s financial   Supervisors, began implementing a new
               system by insuring deposits, examining        risk-focused examination process
               and supervising financial institutions, and   designed to focus bank examinations on
               managing receiverships. In conducting         functions that pose the greatest risk. The
               our audits, evaluations, investigations,      FDIC also has statutory powers to exam-
               and other reviews of corporate pro-           ine any non-FDIC-supervised institution
               grams and activities, we have identified      for insurance purposes.
               a number of major issues that the
               Corporation confronts as it carries out       In addition to onsite examinations, the
               this vital mission. Our interactions with     FDIC attempts to identify risks through
               corporate management and our various          its off-site monitoring program, which
Major Issues

               written products seek to promote the          focuses on evaluating the financial con-
               economy, efficiency, and effectiveness        dition of the institutions through cap-
               of the FDIC’s programs and operations         ture, analysis, and review of data
               and protect against fraud, waste, or          included in quarterly call reports. The
               abuse that can threaten the                   Division of Supervision (DOS) uses off-
               Corporation’s successful accomplish-          site monitoring to identify risks to both
               ment of the challenges it faces. The sec-     FDIC-supervised and non-FDIC-super-
               tions that follow discuss the major           vised institutions and as an early warn-
               issues and the OIG’s work to address          ing tool to identify the need for onsite
               these issues during the past 6 months.        analysis. Once the risks are identified,
                                                             the FDIC can adjust the risk-based
                                                             deposit insurance premiums assessed
               Addressing Risks to                           to the insured depository institutions.
               the Insurance Funds                           The Division of Finance completes the
               A primary goal of the FDIC under its          final phase in this ongoing process by
               Insurance Program is to ensure that its       collecting the premium assessments.
               deposit insurance funds remain viable.
               Achievement of this goal is a consider-       Although the FDIC has an ongoing pro-
               able challenge, given that the FDIC           gram to ensure the viability of the
               supervises only a portion of the insured      deposit insurance funds, recent trends
               depository institutions. This task            and events are posing additional risks to
               requires the coordinated efforts of staff     the deposit insurance funds. The recent
               from several divisions of the FDIC and        spate of bank mergers has created
               various automated systems in an ongo-         “megabanks,“ and, for many of these,
               ing process of proactively identifying        the FDIC is not the primary federal regu-
               risks to the deposit insurance funds and      lator. As of June 30, 2000, the 43 largest
               adjusting the risk-based deposit insur-       banking organizations in the U.S. con-
               ance premiums charged to the institu-         trolled assets totaling $5.4 trillion,
               tions. Additionally, the identification of    accounting for over 60 percent of over
               risks in non-FDIC-supervised institutions     10,000 FDIC-insured institutions. Of the
               requires coordination with the other fed-     43, the FDIC was the primary federal
               eral banking agencies.                        regulator for only 3 megabanks.

               The FDIC strives to identify risks to the     Further, emerging technological
               deposit insurance funds presented by          advancements and the Internet are rev-
               any deterioration in the health of the        olutionizing the financial services indus-
               industry. An important tool in address-       try on a global basis. In a few years,
               ing risks in individual institutions is the   the Internet may become the instru-
               Corporation’s risk-focused examination        ment of choice for managing financial
               process. On October 1, 1997, the FDIC,        services. In order to maintain the
                                                             integrity of the banking system, the




                                 10
FDIC is taking a proactive approach to         implementation of the risk-focused         the examination process nationwide.
these emerging technologies by institut-       examination process. In November           Management agreed to continue to
ing new examination policies and proce-        1998 we issued an initial audit report     take recommended actions.
dures to address the risks arising from        on the risk-focused examination
these advances.                                process and found that the process         Several ongoing audits are addressing
                                               was not being implemented in DOS           other aspects of the risk-focused exam-
The FDIC also maintains a vigilant watch       field offices as intended by DOS head-     ination process. One audit relates to
over other areas of banking that could         quarters management. In response to        DOS’s review of bank compliance with
erupt into problem areas. The Division         that audit, DOS issued a series of divi-   the Bank Secrecy Act during safety and
of Research and Statistics and the             sional memoranda clarifying the pro-       soundness examinations. Another deals
Division of Insurance proactively analyze      gram’s goals and objectives and pro-       with the extent to which DOS examin-
and evaluate trends in the economy,            vided additional training to examiners     ers use expanded and impact analysis
conditions in the banking and financial        to assist them in implementing the risk-   procedures for high-risk areas during
markets, and developments in key sec-          focused process.                           examinations.
tors of the economy (such as real
estate, commerical lending, and agricul-       The report we issued during this report-   We will discuss the results of those
ture). Economists and analysts are             ing period assessed the overall            efforts in our next semiannual report.
reviewing areas such as the boom in the        progress DOS has made in implement-
building of commercial real estate prop-       ing the risk-focused approach since our      “…under Chairman
erties. The FDIC maintains a list of loca-     1998 review. We determined that DOS          Tanoue’s direction,
tions where there is a potential of over-      has made substantial progress. The           investigating fraud
building, which could result in a prolifer-    divisional memoranda and additional          at banks is among
ation of problem loans to financial insti-     training have helped clarify what is         the highest priorities
tutions if the economy softens. Through        expected of examiners. Examiners we          for FDIC examiners
various reporting vehicles, such as the        interviewed appear to have a better          because recent
research and reporting in the commer-          understanding of the risk-focused            changes in the
cial building area, the FDIC guards the        process, and we noted that the use           business of banking
safety and soundness of the nation’s           and documentation of the examination         and innovations
financial institutions.                        modules have improved since our last         in computer
                                               audit. However, we found there were          technology create
Finally, the enactment of the Gramm-           still aspects of the process that need       greater opportunity
Leach-Bliley Act in November 1999 also         attention. Specifically, we found that       for financial
created the most sweeping changes in           there were inconsistencies in the way        irregularities.“
banking since the 1930s. It allows affilia-    examiners have been implementing the
tions between insured banks and financial      process. Also, many examiners were           (FDIC Annual Report
companies, including securities and insur-     still uncertain as to what constitutes       1999)
ance firms, in new types of entities           adequate documentation of the mod-
known as “financial holding companies.”        ules, the supervisory process varied
The Act also allows national banks to          greatly between field offices, and         OIG Focuses on the Risk of
form financial subsidiaries that could         examiners were generally not using the     Fraud in Institutions
engage in financial activities that, in gen-   automated software except to print out     Although the rate of bank failures has
eral, do not include insurance or real         module questions. The process was          decreased significantly in recent years,
estate development/investment. The             generally better implemented in those      the Corporation has experienced sev-
“megabanks” created as a result of merg-       field offices that had a structured        eral major bank failures over the past
ers and the new services that the institu-     supervisory review process. Finally, we    few years. The failure of Best Bank in
tions can engage in under the Gramm-           determined that guidance was needed        1998, which we discussed in an earlier
Leach-Bliley Act will no doubt present         to help clarify examiner responsibility    Semiannual Report, and the more
challenges to the FDIC and may pose            for conducting the risk-focused exami-     recent failure of the First National
new risks to the deposit insurance funds.      nations in cases where examinations        Bank of Keystone, resulting in losses
                                               are conducted jointly with other federal   of $171 million and $750 million to
OIG Addresses Risk-Focused                     bank regulators.                           $850 million, respectively, are good
Examination Issues                                                                        examples. Significantly, fraud appears
During the reporting period we com-            We made six recommendations to help        to have played a major role in those
pleted a follow-up audit of the FDIC’s         ensure uniformity and consistency in       failures.




                                                                 11
                                                    fraud at Keystone. Additionally, staff          that are unsafe, unsound, illegal, or
                                                    from our Office of Audits participated in       improper before the activities become
                                                    a joint project with DOS to review DOS          a drain on the deposit insurance funds.
                                                    initiatives for detecting fraud during
                                                    safety and soundness examinations. This         In accordance with statutory require-
                                                    project was initiated as a joint effort to      ments and corporate policy, DOS pro-
                                                    take advantage of our combined experi-          jected starting almost 2,634 safety and
                                                    ence in examination techniques, audit           soundness examinations in 2001. As
OIG Deputy Counsel Fred Gibson speaking at FDIC
Fraud Conference.
                                                    techniques, and fraud investigations. The       referenced earlier, DOS also provides
                                                    review team made a number of sugges-            off-site monitoring for all insured insti-
                                                    tions for DOS to consider in enhancing          tutions, including those for which it is
                                                    the Division’s current efforts to train their   not the primary regulator. This monitor-
                                                    examiners in fraud detection and exami-         ing includes reviewing Office of the
                                                    nation techniques as well as the impor-         Comptroller of the Currency, Office of
                                                    tance of interagency coordination.              Thrift Supervision, and Federal Reserve
                                                                                                    Board examinations and Securities and
                                                                                                    Exchange Commission filings. DOS
                                                    Supervising Insured                             also processes applications for numer-
Leslye Burgess and John Colantoni from the OIG
                                                    Institutions and                                ous bank activities such as new bank
and Susan Evans (DOS) form team to review DOS       Protecting Consumer                             proposals, mergers, and change of con-
initiatives for detecting fraud during safety and                                                   trol requests. Further, DOS initiates for-
soundness examinations.                             Interests                                       mal enforcement actions and informal
The OIG is an active participant in                 The FDIC’s supervision program helps to         corrective programs as a result of its
efforts to prevent incidents of fraud in            fulfill the corporate mission of contribut-     examinations.
institutions that may ultimately cause              ing to stability and public confidence in
losses to the insurance funds. During               the nation’s financial system by promot-        Consumer Rights
the reporting period, representatives               ing the safety and soundness of insured         The FDIC is legislatively mandated to
from our Office of Investigations (OI) ini-         depository institutions, protecting con-        enforce various statutes and regulations
tiated a series of scheduled presenta-              sumers’ rights, and promoting commu-            regarding, for example, consumer pro-
tions for DOS’s Commissioned                        nity investment initiatives by FDIC-            tection and civil rights with respect to
Examiner Seminars. OIG agents devel-                insured depository institutions. The FDIC       state-chartered, non-member banks.
oped a presentation that provides an                shares supervisory and regulatory               Some of the more prominent laws and
overview of OI operations; the imple-               responsibility for approximately 10,100         regulations in this area include the Truth
mentation of the October 8, 1999                    banks and savings institutions with other       in Lending Act, Fair Credit Reporting
DOS/Legal/OIG agreement regarding                   regulatory agencies, including the Board        Act, Real Estate Settlement Procedures
open bank investigations; and highlights            of Governors of the Federal Reserve             Act, Fair Housing Act, Home Mortgage
of several OI cases. A significant portion          System, the Office of the Comptroller of        Disclosure Act, Equal Credit Opportunity
of the presentation focuses on the clos-            the Currency, the Office of Thrift              Act, and Community Reinvestment Act
ing of Keystone and lessons learned                 Supervision, and state authorities.             (CRA) of 1977. The FDIC’s primary
from that case. The OIG is making pre-                                                              means of accomplishing these tasks is
sentations at the six DOS classes                   As of June 30, 2000, the FDIC was the           through compliance and CRA perfor-
scheduled for 2000 and at an additional             primary regulator for approximately             mance evaluation examinations. During
five or six sessions scheduled for 2001.            5,700 financial institutions that have          2001, the FDIC estimates that it will per-
                                                    assets totaling nearly $1.4 trillion. In        form 662 comprehensive (compliance
Furthering our efforts to combat fraud,             addition, the FDIC provides supervisory         and CRA) examinations and 1,687 com-
several OIG staff participated in the               oversight, though not as the primary            pliance examinations.
Corporation’s Eighth Annual Fraud and               regulator, for about 4,400 financial insti-
Enforcement Training Conference in                  tutions with assets of about $5.8 trillion.     The environment in which financial
Austin, Texas, during the reporting                                                                 institutions operate is evolving rapidly,
period. Our Assistant Inspector General             The challenge to the Corporation is to          particularly with the acceleration of
for Investigations, one of our investiga-           ensure that its system of supervisory           interstate banking, new banking prod-
tors, and an OIG Deputy Counsel pre-                controls will identify and effectively          ucts, electronic banking, and consolida-
sented a session on our work related to             address financial institution activities        tions and/or integrations that may occur
                                                                                                    among the banking, insurance, and




                                                                       12
securities industries resulting from the      plaints and inquiries is expected to        tices have a disproportionately negative
enactment of the Gramm-Leach-Bliley           decrease from 175,000 in 2000 to a          effect on underserved low- and moder-
Act. Further, due to the public interest      range of between 140,000 and 160,000        ate-income borrowers, minority groups,
aspect of consumer protections and            within the next 4 years.                    and the elderly who may be made vul-
potential consumer exposures, the                                                         nerable by the lack of credit availability,
FDIC has a strong incentive for detect-       Some of these complaints and inquiries      financial expertise, financial counseling,
ing and promptly correcting problems          relate directly to financial literacy and   or poor credit history.
in institutions; promoting compliance         predatory lending–issues of primary
with consumer protection laws and             concern for the FDIC’s DCA. Financial       Another important aspect of protecting
regulations; and increasing public            literacy is aimed at educating people       consumer rights is customer privacy.
understanding of and confidence in the        about basic financial services and          With the enactment of the Gramm-
deposit insurance system. The Division        informing the public that insured insti-    Leach-Bliley Act, the FDIC, along with
of Compliance and Consumer Affairs            tutions are a safe place to keep money.     other financial institution regulators,
(DCA) is reassessing its compliance           Predatory lending is when customers         must implement regulations requiring
and CRA workload in consideration of          are enticed into transactions through       the institutions to develop programs to
the extended CRA examination cycles           various schemes and are charged             ensure the privacy of customer infor-
required by the Gramm-Leach-Bliley            higher interest rates and fees than nec-    mation. The Act limits the instances in
Act. DCA functions also include               essary to cover the actual risks associ-    which a financial institution may dis-
responding to consumer complaints             ated with those transactions. In particu-   close nonpublic personal information
and inquiries. The volume of com-             lar, there is a concern that these prac-    about a customer to nonaffiliated third




         OIG Reviews                       We performed a two-phased review based on allegations we received from
         an FDIC                           a Senator on behalf of his constituent—the chief executive officer, director,
         Enforcement                       and 100 percent shareholder of an open institution. The constituent alleged
         Action                            regulatory abuse on the part of the FDIC associated with the Corporation’s
                                           handling of an enforcement action against the constituent.
                                           During the first phase of our review, we assessed internal controls
                                           designed by the FDIC to prevent the initiation of legal proceedings that are
                                           not supported by facts and law. We responded to the Senator on April 5,
                                           2000. We reported that the FDIC’s current policies and procedures are
                                           designed to ensure that facts and information developed support the
                                           charges alleged and the action sought is legally justified and appropriate.
                                           We also reported that approval to pursue formal enforcement actions goes
                                           to the highest level of the FDIC and includes other independent federal reg-
                                           ulators who serve on the FDIC’s Case Review Committee.
                                           The second phase of our evaluation addressed the merit of the
                                           constituent’s specific allegations. We reviewed the administrative hearing
                                           transcript that contained testimony by FDIC employees implicated by the
                                           allegations, bank employees, and the three borrowers of the apparent
                                           nominee loans associated with the enforcement action. We also
                                           reviewed numerous documents from the FDIC’s Legal Division and Division
                                           of Supervision. We communicated our results to the Senator and the
                                           National Ombudsman. We were unable to substantiate any of the
                                           allegations and concluded that the allegations generally lacked merit.




                                                               13
parties and requires a financial institu-    to losses in the thrift’s IORRs generated     amount that will not impair the capital
tion to disclose to its customers the        in connection with the securitization of      protection of the institution. Regarding
institution’s privacy policies and prac-     subprime loans. PTL’s losses were com-        the unique structure of industrial loan
tices with respect to information-shar-      pounded by PTL’s application of an            companies, we recommended that DOS
ing with both affiliates and nonaffili-      accounting standard in which manage-          staff be reminded that they have a right
ated third parties. The Act further          ment established extremely optimistic         of access to and may examine the
requires financial institutions to allow     assumptions for projecting and recording      records of affiliated entities under sec-
customers to opt out of such informa-        anticipated future income associated          tion 10(b) of the Federal Deposit
tion sharing and requires that all           with the IORRs. The unrestrained bor-         Insurance Act and that DOS examiners
notices to customers be clear and con-       rowing through lines of credit and cash       should routinely review institutions’
spicuous. On May 10, 2000, the bank          advances on the IORRs by the parent           material intercompany transactions with
regulators jointly adopted and issued a      holding company allowed PTL to gener-         unregulated holding companies. Finally,
final rule for the Privacy of Consumer       ate loans without reliable and stable         due to delays and confusion surrounding
Financial Information. The regulations       funding sources. This was clearly             the independent valuations performed
are effective November 13, 2000. In          demonstrated when funding sources             by a public accounting firm conducting
order to provide sufficient time for         began to collapse with the Asian finan-       work for PTL at the request of the FDIC,
financial institutions to establish poli-    cial crisis in 1998, and PTL was unable to    we offered a recommendation to
cies and procedures and to put in            recover from its already strained liquidity   improve this process going forward.
place systems to implement the               position to continue to compete in the
requirements of the regulations, the         securitization arena.                         Corporate management agreed with all
time for full compliance with the regu-                                                    of the recommendations in our material
lations is extended until July 1, 2001.      Our report acknowledged that the FDIC’s       loss review report.
The regulations were published in the        regulatory oversight of PTL was respon-
June 1, 2000 Federal Register.               sive to the risks associated with the         OIG Raises CRA Examination
                                             thrift’s IORRs. DOS’s regulatory efforts      Issues
OIG Material Loss Review                     demonstrated attempts to address the          With respect to the OIG’s work related
Examines Impact of IORRs on                  risks associated with the IORRs given         to consumer rights, one of the most
Safety and Soundness                         the power, ability, and market informa-       significant reports of the reporting
During the reporting period, in accor-       tion that were available to DOS at that       period was our report entitled Audit of
dance with section 38(k) of the Federal      time.                                         the Division of Compliance and
Deposit Insurance Act, we conducted a                                                      Consumer Affairs’ CRA Examination
material loss review of the failure of       Since the failure of PTL, the FDIC’s DOS      Process. We brought the report to the
Pacific Thrift and Loan Company (PTL),       has issued significant examination guid-      attention of several congressional com-
Woodland Hills, California, to determine     ance regarding subprime lending and           mittees because of their continuing
the causes of the thrift’s failure and to    asset securitization. The guidance            interest in the implementation of and
evaluate the FDIC’s supervision of the       specifically addresses the risks posed by     changes to the CRA of 1977.
thrift. PTL was closed on November 19,       subprime lending and asset securitiza-
1999 with total assets of $117.6 million.    tion as well as the examination methods       We reviewed the reports from 57 CRA
At the time of closure, the FDIC esti-       and regulatory treatment that examiners       examinations started by the FDIC in
mated that the Bank Insurance Fund           are to use when they encounter finan-         1998. We found that the FDIC’s CRA
would incur a loss of $49.9 million. The     cial institutions engaged in either or both   procedures did not provide specific guid-
estimated loss was raised to $52 million     types of activities. We recommended           ance in some critical areas of the evalua-
as of December 31, 1999. The loss was        that DOS actively pursue amending the         tion process and, as a result, FDIC exam-
exacerbated by PTL’s sizeable invest-        capital standards to exclude interest-only    iners were not consistently applying the
ment in interest-only residual receivables   residuals from the calculation of Tier 1      procedures within and among regional
(IORRs) generated through its securitiza-    Leverage Capital. The federal regulatory      offices. We also found that the FDIC’s
tion program. DOS’s regulatory efforts       agencies drafted a proposal to restrict       CRA reports did not comprehensively
acknowledged the risks associated with       the amount of IORRs from subprime             identify the credit needs of the commu-
the IORRs and attempted to quantify any      securitizations. The Board approved the       nities in which the banks were operating
potential losses in the IORRs.               proposal during August 2000 and it is         and did not consistently include sufficient
                                             currently out for public comment. In          and comparative analytical data on the
Our review determined that PTL’s man-        addition, we recommended that DOS             banks’ small business lending perfor-
agement did not operate the institution      develop an approach for limiting an insti-    mance to explain the basis for the exam-
in a safe and sound manner, which led        tution’s interest-only residuals to an        iners’ conclusions. In addition, we deter-




                                                                14
mined that the FDIC’s internal control      instructions to follow for critical areas     The Division of Resolutions and
procedures over the supervisory review      of the examination, does not address          Receiverships (DRR) is responsible for
of CRA reports and workpapers needed        internal control issues such as quality       resolving failed institutions and manag-
to be enhanced to ensure consistency        assurance reviews or workpaper stan-          ing or liquidating remaining assets. As
in CRA analyses and ratings. We             dards, and is not applicable to the           reported in the FDIC’s second quarter
believe the inconsistencies and other       many small bank examinations con-             edition of the Regional Outlook, changes
weaknesses in the CRA review                ducted by the FDIC.                           in the U.S. economy during the current,
process demonstrate a material internal                                                   record-long expansion may be increasing
control weakness. Enhancements to           During the course of our audit, the           financial and market risks for the bank-
control procedures are necessary            FDIC took prompt action to initiate a         ing industry. FDIC analysts describe how
before FDIC management can be               task force to perform a comprehensive         “New Economy” trends, which may
assured that examiners are conducting       review of CRA reports from FDIC               produce longer expansions, also intro-
examinations consistently and in accor-     regions. The task force will address a        duce the possibility of more severe
dance with procedures.                      wide range of issues relating both to         recessions. According to the report, long
                                            the examination process and the CRA           expansions allow banks and their cus-
We made seven recommendations to            reports. FDIC management expects to           tomers to take on more leverage and
improve consistency in examination pro-     complete this review and provide addi-        possibly more risk; growing indebted-
cedures, the use of community contact       tional training to all DCA examination        ness leaves both consumers and busi-
information and comparative analytical      staff by December 2000, with full             nesses vulnerable to rising interest
data in CRA reports, and internal con-      implementation in the field no later          rates. DRR has made significant efforts
trols for quality assurance reviews and     than June 2001.                               in the area of contingency planning in
workpaper maintenance. FDIC manage-                                                       the event the number of bank failures
ment agreed to implement six of our         The OIG will continue to address the          increases. DRR has identified “failure“
seven recommendations. While man-           Corporation’s efforts related to CRA and      scenarios and is preparing readiness
agement did not agree with our specific     other consumer protection issues.             plans that would assist in fulfilling DRR’s
recommendation to include a separate        Currently we are auditing the FDIC’s          resolution and liquidation responsibilities
section in each CRA report on the           implementation of the Fair Lending            for those scenarios.
results of community contacts, manage-      Examination Procedures. “Fair lending“
ment did commit to improving the pre-       is a catch phrase for compliance with         As of September 30, 2000, the FDIC
sentation of data gleaned from commu-       federal laws and regulations prohibiting      held assets for liquidation that totaled
nity contacts.                              discrimination in the lending process.        approximately $1.2 billion in book value.
                                                                                          Although the current and projected
The Corporation issued examination                                                        asset workload is far below the $165 bil-
procedures for small banks that went
                                            Maximizing Returns                            lion held by the FDIC and Resolution
into effect on January 1, 1996.             from Failed                                   Trust Corporation (RTC) in 1992, effec-
Procedures for large banks went into        Institutions                                  tively managing assets and ensuring the
effect on July 1, 1997. The Corporation                                                   timely, efficient resolution of assets at
issued supplemental Large Bank CRA          One of the FDIC’s main goals is to min-       the maximum price is an integral com-
Guidance to its regional offices in         imize the negative financial effects of       ponent of the Corporation’s mission.
December 1998, in part, to improve          failing and failed insured depository
consistent data presentation in the CRA     institutions in its receivership manage-      Future audit areas will include DRR sys-
reports. In responding to our report,       ment program. To do this, the                 tems and processes, such as the man-
management stated that it believed the      Corporation has identified four strategic     agement and oversight of contracts and
supplemental large bank guidance            goals within the receivership manage-         third-party agreements, receivership ter-
issued just prior to our review             ment program area: (1) failing insured        mination activity, and review of contin-
addressed many of the issues raised by      depository institutions are resolved in       gency plans and closing procedures for
our report. We reviewed this document       the least costly manner, (2) receivership     future resolutions. As discussed later in
during our audit. We do not believe this    assets are managed and marketed to            this report, in the spirit of the
guidance fully addresses the concerns       maximize net return, (3) professional         Government Performance and Results
we identified or the corrective actions     liability and other claims of the receiver-   Act, current and future OIG work is
we recommended in our report.               ship are pursued in a fair and cost-          intended to aid DRR in accomplishing its
Although the guidance should improve        effective manner, and (4) receivership        goals as outlined in its strategic plan.
consistency in certain areas, it does not   claims and other liabilities are resolved
provide examiners specific criteria or      in a fair and cost-effective manner.




                                                               15
OIG Focuses on Securitizations                          or excessive under the terms of the                      upcoming whole loan sales and the sta-
The OIG helps ensure that the FDIC’s                    Securitizations’ related agreements. The                 tus of any future plans to resecuritize
interests in securitizations are ade-                   FDIC’s DRR agreed to disallow all of the                 the remaining loans.
quately protected and that the related                  costs we questioned and is currently
entities are performing adequately under                negotiating a settlement with Ryland                     OIG Addresses Other Asset
the various agreements.1 At the RTC’s                   regarding the questioned amounts.                        Management Issues
sunset date, the FDIC inherited a total                                                                          OIG audits during the reporting period
of 72 securitization transactions with an               OIG Advises Caution in Plan for                          addressed a number of other asset-
initial credit reserve balance of $7.8 bil-             Resecuritization                                         related matters, as briefly noted below:
lion. As of July 25, 2000, the FDIC                     The OIG also reviewed DRR’s plans to
reported that 33 active securitizations                 resecuritize commercial mortgage loans                   • Because the Northeast Service
with a credit reserve balance of about                  held in various terminating securitiza-                    Center (NESC) was scheduled to
$1.8 billion remained in its inventory.                 tions. We determined that resecuritizing                   close on June 30, 2000 and its work
                                                        DRR’s 10 chosen terminating securitiza-                    was to be transferred to the Dallas
During the current reporting period we                  tions offered marginal potential benefit                   office, the OIG undertook an audit of
completed 10 audits that focused on                     over the whole loan sale option while                      the NESC’s collateral vault to deter-
the effectiveness of securitization ser-                possibly exposing the FDIC to financial                    mine the accuracy of its inventory
vicers. Nine of those 10 audits focused                 risk. We discussed our concerns with                       prior to its scheduled closure.
on a shared servicer, Ryland Mortgage                   DRR management throughout the
Company. In the other audit (related to                 course of our audit. Then, on July 26,                   •The OIG also completed an audit of
RTC 1992-C4), we determined that                        2000, DRR indicated that current mar-                     residual interests from asset
although the securitization’s special ser-              ket conditions did not favor the resecu-                  disposition decisions made by
vicer properly calculated its servicing                 ritization. Instead, DRR planned to first                 Settlement and Workout Asset Teams
fees, there were problems associated                    test the whole loan sale market by sell-                  and found that certain RTC residual
with realized loss calculations and with                ing 2 of the 10 securitizations and then                  interests were not monitored.
interest paid to certificateholders after               reassess whether to continue with the
loans were liquidated. Collectively,                    whole loan sales of the remaining 8                      • As a follow-on to our audit of the
these 10 audits resulted in questioned                  securitizations or pursue the option of                    NESC’s subsidiaries inventory, we
costs of approximately $7.1 million.                    resecuritization.                                          performed a similar audit at the Dallas
                                                                                                                   Field Operations Branch (FOB) and
Reviews of Nine Securitizations                         The OIG expressed two observations                         found that the Dallas FOB did not
Serviced by Ryland Mortgage                             regarding DRR’s resecuritization plans.                    have a complete inventory of all FDIC
Company Question over $7 Million                        First, we found that the characteristics                   subsidiaries for its geographic area of
This semiannual period we reviewed the                  of the proposed portfolio significantly                    responsibility.
claims made to the credit enhancement                   limited its potential as a successful
reserve funds for nine RTC securitization               resecuritization. We believed this was                   • Another audit led to DRR agreeing to
transactions known as 1991-01, 1991-                    true because the improved quality of                       require loan servicers to submit
03, 1991-07, 1991-09, 1991-12, 1991-15,                 these loans along with their much                          documentation before being paid.
1992-01, 1992-03, and 1992-04                           shorter average loan life made the
(Securitizations). Ryland Mortgage                      resecuritization option less attractive                  OIG Work Results in Joint
Company (Ryland) serviced these                         while potentially exposing the FDIC to                   Investigative Cases That May
Securitizations, and an independent pro-                the credit, prepayment, and market                       Recover Millions of Dollars
fessional services firm performed these                 risks inherent in securitizations.                       The OIG continued to coordinate
audits under the direction of the OIG.                  Second, although the OIG agreed with                     closely with DRR both at headquarters
                                                        DRR management’s decision to test                        and the field offices on investigations
We reported that of the $26.8 million in                the whole loan market, we were con-                      of suspected criminal activity involving
claims to the Reserve Funds for the 428                 cerned that because the two securitiza-                  court-ordered restitution and other
sample loans, we identified questioned                  tions planned for sale were not repre-                   debts that are owed to the FDIC as a
costs totaling $7,133,619, or 27 percent                sentative of the remaining portfolio,                    result of the takeovers of failed banks
of total claims reviewed. Of the total                  they may not provide a true indication                   and thrifts. As noted in previous semi-
questioned costs, $6,103,495 was char-                  of the value of the remaining portfolio.                 annual reports, court-ordered restitution
acterized as unsupported and                                                                                     is the result of criminal convictions
$1,030,124 was considered to be other                   We requested that DRR management                         stemming from schemes to defraud
questioned costs that were unallowable                  keep us advised of the results of the                    federally insured institutions that have

1
 A securitization involves selling securities that are primarily collateralized by various types of real estate loans to investors. To sell large amounts of loans
most efficiently and obtain the greatest financial benefit, receivership loans are pooled together as collateral to back securities sold to investors in the
secondary market. The process results in mortgage-backed securities, or pass-through certificates.

                                                                               16
resulted in losses to the FDIC. As of        the Corporation and the institutions         According to the Corporation’s Strategic
September 30, 2000, a total in excess        that it supervises and insures. Many of      Plan, simply applying technology solu-
of $1.1 billion is due as a result of out-   these risks are new and unique.              tions will not solve existing business
standing criminal restitution orders.        Therefore, solutions to address them         problems. The FDIC’s program areas
                                             are sometimes difficult and, in many         must first identify where current
Additionally, the FDIC is continuing to      cases, without precedent.                    processes can be improved, and then
attempt to collect debts it is owed as a                                                  technology can be applied to facilitate
result of loans originated by financial      The Corporation has recognized the           those processes and ultimately accom-
institutions prior to their failure. The     opportunities and challenges of incor-       plish the corporate mission. The
OIG’s investigative work in these cases      porating advancements in technology          Corporation is focusing its efforts on key
is based on indications that the debtors     into its internal operations and supervi-    business processes that are most funda-
may have made false statements con-          sory activities. The FDIC has issued a       mental to the Corporation’s success and
cerning their assets or their ability to     variety of publications, including the       is working to improve these processes.
pay. Some of these cases involve elabo-      FDIC Information Technology Strategic        At the same time it is seeking to identify
rate schemes to conceal assets, includ-      Plan for 2000-2005, a document enti-         when and how technology can be used
ing illegal transfers to others. They also   tled Emerging Technologies/Risks and         to support these efforts and better sup-
involve, in some instances, the filing of    Recommendations for the FDIC, and            port the Corporation and its customers.
fraudulent bankruptcies to avoid pay-        office and divisional IT plans. These        The IT Strategic Plan contains the fol-
ment. The OIG’s participation in pursu-      documents are focused on identifying         lowing six goals:
ing the criminal aspects of these mat-       technology to enhance and streamline
ters offers investigative techniques not     the FDIC’s operations, developing            • Improve Customer Satisfaction by
otherwise available to DRR, such as          processes to provide increased assur-          Delivering Better Application
serving subpoenas, conducting surveil-       ances regarding the risks associated           Systems
lance, executing search warrants, and        with financial institutions’ use of new
interviewing various subjects.               technologies, and developing and main-       • Improve Business Processes
                                             taining a trained and skilled workforce       Through the Use of Technology
As of September 30, 2000, the OIG is         capable of assessing the impact of
conducting 54 investigations that are        technology on the FDIC and financial         • Manage Information for the
being coordinated with DRR and involve       institution operations.                        Corporation
over $382 million in outstanding restitu-
tion orders and other types of debt.         In addition to technological advances,       • Provide an IT Infrastructure that
                                             the Corporation must respond to the           Works Everywhere, All the Time
                                             impact of new laws, regulations, and
Managing                                     legal precedents on its activities.          • Improve the Efficiency and
Information                                  Management of IT resources and IT              Effectiveness of IT Management
                                             security have been the focus of several
Technology                                   significant pieces of legislation, includ-   • Establish and Improve E-commerce
Information technology (IT) is increas-      ing the Government Performance and             Relationships with FDIC-Insured
ingly impacting every facet of our lives     Results Act, the Clinger-Cohen Act, and        Financial Institutions and Regulatory
and is evolving at an ever-increasing        the Paperwork Reduction Act. In addi-          Partners
pace. The Corporation must constantly        tion, the Congress has sent to the
evaluate technological advances to           President H.R. 4205, the National            Accomplishing these goals efficiently and
ensure that its operations continue to       Defense Authorization Act, which con-        effectively requires significant expendi-
be efficient and cost-effective and that     tains legislation related to IT security.    tures of funds and wise decisionmaking
it is properly positioned to carry out its   The bill would require the OIG to con-       and oversight on the part of FDIC man-
mission of insuring and supervising the      duct annual (for the next 2 years) evalu-    agers. The Corporation plans to invest
nation’s financial institutions. The capa-   ations of the FDIC’s information secu-       approximately $202 million in IT resources
bilities provided by the IT advances that    rity programs and practices. Also, the       during calendar year 2000. Its 2001 bud-
we are witnessing--paperless systems,        Office of Management and Budget              get is approximately $185 million.
electronic commerce, electronic bank-        (OMB) has recently proposed signifi-
ing, and the instantaneous and con-          cant changes to its guidance on manag-       OIG’s Work Aims to Leverage the
stant information-sharing through            ing IT activities (OMB Circular A-130).      Value of Information Technology
Internet, Intranet, and Extranet                                                          As part of our mission to promote econ-
sources–also pose significant risks to                                                    omy and efficiency and reduce fraud,




                                                               17
waste, and abuse, the OIG must con-         streamlining voucher processing as well      We are confident that management’s
tinue to develop and maintain an under-     as providing travelers with a paperless      positive responses to these recommen-
standing of new technologies and their      means of obtaining rapid reimburse-          dations will help ensure improved pro-
benefits. We must ensure that the risks     ment for their travel expenses. The          ject management and cost controls for
associated with the deployment of new       FDIC followed a sound and structured         future system development efforts.
technical strategies are adequately and     methodology for developing the sys-
effectively addressed both within the       tem, and the development effort gener-       Sound Configuration Management
Corporation and by the institutions that    ally adhered to the FDIC’s SDLC proce-       Program Is Important to IT Success
it insures and supervises. Further, fol-    dures. Further, ETVPS user require-          We also issued a report related to the
lowing system implementation, we con-       ments were adequately defined.               FDIC’s IT configuration management
duct work to ensure that systems and        However, system deliverables did not         (CM) program. CM is a critical element
activities continue to provide the ser-     satisfy all user requirements when           in the development of software and
vice levels envisioned, that the success    implemented in November 1999. The            hardware because it is the disciplined
of corporate activities can be accurately   ETVPS project team has been address-         approach to controlling the inevitable
measured, and that controls to address      ing remaining requirements since imple-      changes that occur during a product’s
risks are diligently maintained. The OIG    mentation. Significant delays in system      life cycle. The FDIC was in the initial
also considers and addresses the            implementation and increases in costs        stages of developing a plan for a formal
requirements of new and revised legis-      raise serious questions about the timeli-    CM program and had already taken a
lation and regulations as it assesses the   ness and cost-effectiveness of the pro-      number of positive steps. We made a
FDIC’s IT operations.                       ject. The system was originally sched-       recommendation as to what we felt
                                            uled for implementation in July 1998         were the salient features of an effective
Our IT work during the reporting period     but was not delivered until November         CM program for the FDIC. We believe
related to such areas as system devel-      1999. Costs were originally estimated        that the FDIC should develop a central-
opment, controls over specific applica-     at $505,290 but exceeded $13.8 million       ized CM program that includes docu-
tions, use of the Internet and Intranet,    as of February 29, 2000.                     mented policies, procedures, and
configuration management, compliance                                                     responsibilities to ensure that (1) CM
with Presidential Decision Directive 63,    Although not in place at the time of         includes the entire software develop-
and expenditure authority for telecom-      ETVPS development, the Corporation           ment and modification process, (2) all
munications contracts, as discussed in      has subsequently developed proce-            FDIC software is included in the CM
more detail below.                          dures to ensure more effective cost          program, (3) all FDIC software is subject
                                            controls, including alerting the IT          to standardized labeling and inventory-
Electronic Travel Voucher Payment           Council of significant changes in a pro-     ing processes, (4) CM tools are consis-
System Is Effective but Costly              ject’s cost, schedule, and risk. Our         tently selected and used, and (5) the
During the reporting period we issued       report identified additional opportunities   feasibility of integrating or consolidating
the results of our audit of the             for the FDIC to improve project man-         CM tools currently in use is explored.
Corporation’s development of the            agement and cost controls for future
Electronic Travel Voucher Payment           system development efforts and con-          SHARP Controls Can Be Enhanced
System (ETVPS). The OIG has been            tained eight recommendations. Among          With respect to specific application
involved throughout the development         our specific recommendations were            reviews, we looked at controls in place
effort. We issued several other prod-       that the Corporation incorporate cost        for SHARP, a system used by two of
ucts related to ETVPS during its devel-     control procedures into either a formal      the FDIC’s major divisions, DOS and
opment that we included as an appen-        policy directive or the FDIC’s SDLC          DCA. The SHARP system is a comput-
dix to our report. We conducted the         Manual; identify at the beginning of a       erized scheduling, hours, and reporting
audit to determine whether ETVPS            project all resources believed necessary     package tracking system. It has been
adhered to generally accepted system        to complete the system development           developed for DOS and DCA to stan-
development life cycle (SDLC) proce-        project and update this information peri-    dardize the process of collecting and
dures, user requirements were ade-          odically; obtain commitments to ensure       reporting hours-utilization information
quately defined, and system deliver-        these needed resources throughout the        for examiners. DOS and DCA manage-
ables satisfied user requirements in a      project and monitor progress; make the       ment use SHARP information for exami-
cost-effective and timely manner.           use of project numbers mandatory; and        nation management and budget pur-
                                            develop a master list of employee            poses, analyzing and tracking examina-
We concluded that ETVPS will benefit        names for use by the system.                 tion time spent, and projecting future
the Corporation by reducing the time                                                     staffing needs.
needed to prepare travel vouchers and




                                                              18
Overall, the SHARP system generally            disparate data entries, and when such    FDIC Operates in the Spirit of
meets the needs of DOS and DCA                 entries are identified, DCA follows up   Presidential Decision
examiners and management. DOS                  on them. However, we noted some          Directive 63
regional office reviews check the relia-       controls that DCA should strengthen      During the reporting period we partici-
bility of the SHARP data on a periodic         over the controls in the system to       pated in the first phase of an interagency
basis. However, we noted some con-             ensure data integrity. These controls    effort under the auspices of the
trols that DOS should strengthen over          relate to the input and review of        President’s Council on Integrity and
the data in SHARP to ensure data               employee hours, the prevention of data   Efficiency (PCIE) to review implementa-
integrity and reliability. These controls      alteration, and the performance of       tion of Presidential Decision Directive
relate to the input and review of              regional office reviews.                 (PDD) 63. PDD 63 calls for a national
employee hours and the prevention of                                                    effort to ensure the security of the
data alteration. As for DCA’s use of the       Management agreed to implement           nation’s critical infrastructures--those
system, DCA has developed an excep-            added controls to address these areas.   physical and cyber-based systems essen-
tion reporting process that identifies                                                  tial to the minimum operations of the




          Reportable                        As part of the Corporation’s 1999 financial statement audit, the U.S.
          Condition in                      General Accounting Office (GAO)/OIG audit team reviewed the FDIC’s infor-
                                            mation system general controls. These controls are designed to safeguard
          GAO Financial
                                            data, protect computer application programs, prevent unauthorized access
          Statement
                                            to software, and ensure continued operation of systems in cases of unex-
          Audit Relates                     pected interruption.
          to Information
          System                            The audit team found that the FDIC’s information system controls were
          Controls                          “ineffective.“ Weaknesses were identified in the FDIC’s corporate-wide
                                            security program, access controls, segregation of duties, and service conti-
                                            nuity. According to GAO, these control weaknesses “significantly impair
                                            the effectiveness of FDIC’s application controls, including financial sys-
                                            tems.“ The audit also determined, however, that other management con-
                                            trols mitigated the effect of control weaknesses on the financial state-
                                            ments.
                                            The FDIC recognized the seriousness of the identified control weaknesses
                                            and began taking immediate action to address them. Initiatives undertaken
                                            include identifying major applications and, for these, scheduling indepen-
                                            dent security reviews and completion of security plans and management
                                            authorizations.
                                            As referenced in our discussion of Presidential Decision Directive 63, the
                                            OIG pursued a review of the Corporation’s Information Technology Risk
                                            Management Program during the past reporting period. Throughout this
                                            project we worked closely with DIRM to help implement policies and
                                            practices that will strengthen controls in this area. Changes that DIRM is
                                            making in the area of sensitivity assessment questionnaires and tracking
                                            required major application documents will serve to address many of the
                                            concerns raised in the financial statement audit. We are in the process of
                                            formulating recommendations that will further address the concerns raised
                                            by GAO and, as stated earlier, will report our final results in our next semi-
                                            annual report.




                                                               19
OIG            The growth of the IT sector and the Internet, in particular, has been phenom-
Addresses      enal throughout the federal government. We can hardly imagine accomplish-
FDIC           ing our various missions without the use of computers and the Internet
Employee       resources they provide us. Despite the advantages, these new technological
               tools create certain risks that must be considered. To explore the overall
Internet Use
               environment of Internet use at the FDIC, the OIG conducted a review of FDIC
Issues
               employee use of the Internet. The review team looked at many issues in
               attempting to address the following questions: How does management con-
               trol employee use of the Internet? What are the risks and threats to the
               Corporation when employees use the Internet? Are managers using the
               FDIC’s existing Internet policy? How do other federal agencies control
               employee use of the Internet? What policies and practices exist elsewhere in
               the government and private sector that the FDIC can learn from? After con-
               ducting its work, the team presented its results to the FDIC’s Operating
               Committee. We determined early on that senior management at the
               Corporation must make the decisions on Internet use. Thus, a primary goal
               was to provide corporate managers with decision factors needed to deter-
               mine and implement the most effective, cost-beneficial control strategy for
               the FDIC. These decision factors included:
               • Best practices from other federal agencies and from the private sector,
               • Legal issues and recent legal decisions concerning privacy and
                Internet/e-mail monitoring,
               • Advanced software monitoring tools and capabilities,
               • The FDIC line managers’ ideas and opinions concerning the extent of
                Internet misuse, and
               • The FDIC’s technical capabilities to implement monitoring programs.
               The unique nature of this review required that we coordinate closely with
               representatives of various FDIC divisions. We surveyed a large sample of
               FDIC managers from every division to solicit their opinions and ideas. We
               held additional discussions with Legal Division, IT, and administrative man-
               agers. In a spirit of partnership we held meetings to discuss together the
               issues of implementing and managing an Internet monitoring program.
               As a result of our work, we suggested a balanced approach to a revision of
               the Corporation’s employee Internet use policy. Legal and social issues call
               for a clearly worded, well communicated, and consistently enforced policy.
               We specifically suggested enhancements to the current communication strat-
               egy. We suggested that inappropriate use of the Internet be discussed in
               future Ethics and User Security training sessions that are conducted annually
               for each employee. Also, we suggested that on-line banners be used that will
               remind users each time they use e-mail and the Internet that their use is not
               private and can be monitored.
               Our work had significant impact. The Corporation sent a global e-mail detail-
               ing proper use of the Internet and e-mail, developed an on-screen banner for
               every initial log-on to the network, and implemented blocking devices.
               Additionally, the Corporation is now including Internet use in its corporate-
               wide security training and in annual employee ethics training and is modify-
               ing its written Internet and e-mail use policy.




                                               20
             OIG Addresses                                 Privacy has been and continues to be of significant concern to the
             Emerging FDIC                                 public and the Congress. Recent studies have shown that privacy is
             Internet and                                  the number one concern of those using the Internet. Given the
             Intranet                                      heightened concerns about online privacy and, in particular, the dis-
             Privacy                                       closures made about information collected from visitors to Web sites,
             Concern                                       we conducted a review of the FDIC’s Web site disclosure statements.
                                                           We concluded that the Corporation’s external Web site Privacy Policy
                                                           Statement was substantially consistent with applicable guidance,
                                                           which was noteworthy because the FDIC’s statement was developed
                                                           and posted on its external Web site in 1998–before any requirement
                                                           to do so. In response to our recommendations, the FDIC took or
                                                           planned the following actions:
economy and government. The review                         • The Office of Executive Secretary added Privacy Act notices to 2
consists of four phases. Phase I relates                      Web pages and requested that the Division of Information
specifically to planning activities related                   Resources Management (DIRM) create hyperlinks to the Privacy
to protecting cyber-based infrastructures.                    Policy Statement on 11 Web pages.
The FDIC Legal Division has opined that                    DIRM agreed to:
PDD 63 is not legally binding on the
FDIC, given the FDIC’s status as an                        • Implement a security notice on the FDIC’s Internet site to reflect
independent agency outside of the                             new guidance being developed by the Chief Information
Executive Branch. However, the FDIC                           Officers Council.
has indicated that it supports the
President’s goal of safeguarding critical                  • Develop guidance for Internet Coordinators and Webmasters to
national infrastructures and has voluntar-                    ensure awareness of Office of Management and Budget privacy-
ily included the principles of PDD 63                         related disclosure requirements and modify guidance for
while developing its Information Security
                                                              reviewing information before it is posted on the FDIC’s
Strategic Plan. In view of the Legal
Division’s opinion, we focused our                            Internet Web site.
efforts on comparing the FDIC’s Security                   • Develop and post a notice for the FDIC’s internal network address-
Plan, security policies, and security pro-
cedures with the provisions of PDD 63.
                                                              ing employee privacy to enhance existing policies.
                                                           Lastly, we recommended, and the Corporation agreed to form, a
We determined that the FDIC has initi-                     working group to study and prepare a report on the need for estab-
ated or implemented actions to address
                                                           lishing a focal point in the Corporation for privacy issues. We con-
the general requirements of PDD 63.
Because the FDIC has indicated that it is
                                                           cluded that such a focal point was important to the FDIC because the
not bound by PDD 63, was not desig-                        Corporation must deal with privacy on several levels–as a govern-
nated as a Tier 1 or Tier 2 agency2 by the                 ment agency, regulator of financial institutions, and employer.
directive, and has not identified any of
its physical or cyber-based systems as
essential to the minimum operations of               reviews of these systems to ensure                     conducted an audit of the IT Security
the economy and government, we have                  effective security and identify needed                 Risk Management Program. The objec-
determined that we will not participate              security improvements, as required by                  tives of our audit were to provide assis-
in subsequent phases of the PCIE pro-                OMB Circular A-130. However, we                        tance to DIRM’s information security
ject. However, our efforts during Phase              believe that the Division of Information               staff in a real-time mode and an evalua-
I of the project identified one area of              Resources Management’s (DIRM) initia-                  tion of the process used to identify the
security activities that we believe can              tives in this area can benefit from an                 FDIC’s major systems and the effec-
benefit from further audit involvement.              enhanced risk management program                       tiveness of resulting sensitivity assess-
                                                     that would include a modified program                  ments, independent security reviews,
The FDIC has instituted a risk manage-               structure, increased coordination within               security plans, and management
ment program and is in the process of                DIRM, and increased support from                       accreditation of general support sys-
identifying its major systems and                    DIRM’s clients. As a result, we have                   tems and major applications. We will
scheduling independent security


PDD 63 designates specific agencies as having responsibility for protecting particular infrastructures. These agencies are described as being Tier 1 or
2

Tier 2 agencies depending on the level of their responsibility.



                                                                            21
report the results of this work in our       other initiatives discussed in the request   expenditure authority for active con-
next semiannual report.                      when they are proposed during future         tracts had been spent and $204 million
                                             budget processes.                            remained to be used.
OIG Examines Corporate Request
for Expenditure Authority—                                                                During the reporting period, the OIG con-
OneNet Wide Area Network
                                             Ensuring Sound                               tinued to focus on auditing contracts and
The OIG provided the Chief Financial         Controls and                                 agreements, especially DIRM service
Officer (CFO) with observations and          Oversight of                                 contracts. We issued two audit reports
issues after reviewing DIRM’s Request                                                     on IT services contracts and had four
for Expenditure Authority for the            Contracting                                  ongoing as of September 30, 2000. The
OneNet Wide Area Network. The                Activities                                   purpose of these audits is to determine
request proposed to consolidate exist-                                                    whether billings were allowable and sup-
ing wide area network and long dis-          The private sector provides goods and        portable and identify any oversight issues
tance voice and video contracts into         services to the Corporation as needed        needing attention. In the case of the con-
one contract to employ technology that       through contracting to assist the FDIC       tractors under audit, the FDIC procured
would enable the FDIC to process data        in accomplishing its mission.                IT services from vendors that were pre-
and voice communications over a sin-         Contractors assist the FDIC in many          qualified under the General Services
gle network. The request also dis-           areas including information technology,      Administration Federal Supply Service’s
cussed the need for increased network        legal matters, property management,          IT Multiple Award Schedule program.
capacity that would be provided              loan servicing, asset management, and        We issued an advisory memorandum to
through OneNet at all levels of the          financial services.                          call attention to recurring oversight
Corporation to support new technolo-                                                      issues and we will be performing addi-
gies and applications. The observations      The FDIC recognizes that sound con-          tional work in this area in the future.
and issues addressed the need for the        trols and oversight of contracting activi-
network and increased capacity to            ties are important. To guard against the     OIG Reviews Two Contractors
meet the FDIC’s mission-related and          risk of possible fraud and abuse in this     Hired Under General Services
business objectives, the cost of the         area and in response to the OIG’s sug-       Administration Program
OneNet Network compared to the               gestion, the FDIC plans to add a goal        The OIG audited the billings of two
existing telecommunication contracts,        regarding contractor oversight to its        contractors, CIBER, Inc., and COMSO,
and alternatives considered and avail-       Annual Performance Plan, which is            Inc., that the FDIC obtained by using
able for accomplishing the objective of      done in accordance with the                  the General Services Administration’s
the proposed contract.                       Government Performance and Results           pre-established contracts for informa-
                                             Act. (See discussion on pages 25 - 26.)      tion technology services. In both
Our memorandum to the CFO also               Also, the Corporation recently revised       instances the OIG found that although
included other questions and issues we       its Acquisition Policy Manual, and the       billings generally were supported, they
believed were relevant to the request        Office of Internal Control Management        were not always allowable. The unal-
for expenditure authority that involved      has been participating with the OIG to       lowable charges included those related
the procurement of the services and          provide joint briefings to contracting       to employee qualification issues, exces-
preparations for effective implementa-       officers and others on contracting risks     sive or unauthorized subcontractor
tion of this new technology. The FDIC’s      and proper controls to guard against         markups, billing rates, volume dis-
Board of Directors approved the              those risks.                                 counts, and unallowable expenses.
request on July 27, 2000 following a                                                      Questioned costs totaled $587,621 for
presentation by the Director, DIRM,          Projections of year 2001 non-legal con-      CIBER, Inc., and $260,259 for COMSO,
that clarified information in the request    tract awards and purchases total 2,500       Inc. In addition, the OIG identified sev-
related to issues and observations that      actions valued at approximately              eral contract administration issues that
we discussed in our memorandum.              $340 million. One of the most active         both the Division of Administration and
                                             areas of contracting in the Corporation      DIRM are addressing.
This review afforded us the opportunity      regards information technology. As of
to work proactively with the Corporation     September 30, 2000, there were more          OIG Identifies $1.26 Million for
and to assist the Corporation in its deci-   than 269 active information resources        Intrastate Surcharge and Other
sionmaking process. The CFO indicated        management contracts valued at               Compliance Issues with MCI
the information we provided would be         approximately $347 million that had          Voice and Video Contract
helpful in reviewing the need for, and       been awarded in headquarters.                We completed the second in a series
costs associated with, OneNet and the        Approximately $143 million of this           of evaluations associated with the




                                                               22
FDIC’s Voice and Video Long Distance           Health Benefits Program                      is expected to decline to approximately
Services Contract with MCI WorldCom,           Administrator Overcharged the                6,549 positions by the end of 2000,
Inc. (MCI). This evaluation addressed          FDIC $822 Thousand                           down from the 7,265 positions autho-
whether MCI properly billed the FDIC           Although we concluded that the FDIC’s        rized for the end of 1999. In addition to
for services during the first 39 months        third-party administrator of its health      reductions in the size of the workforce,
of the contract. We again had the              benefits program, Aetna U.S.                 as the Corporation’s needs have
opportunity to work closely and in             Healthcare, generally administered the       changed, employees have been relo-
cooperation with the Division of               program within the terms of the con-         cated to best serve those changing
Administration’s Acquisition and               tract, we determined that Aetna over-        needs.
Corporate Services Branch (ACSB) and           charged the FDIC $822,307 for admin-
DIRM staff to achieve substantial sav-         istrative fees, incorrectly processed        The FDIC has faced staffing shortages
ings for the Corporation.                      claims, and overpaid claims that Aetna       in certain critical skill areas owing to
                                               did not collect as contractually required.   the loss of such a high number of staff
Overall, for this evaluation we identified     The Division of Administration has           and strict prohibitions on hiring from
almost $1.26 million in charges that           agreed to pursue the overcharged             1992 through 1997. Additionally,
were not supported, consisting of              amount. An independent professional          through the use of employee buyouts,
$1.24 million in questioned costs and          services firm performed this audit           early retirements, and other downsizing
$18,000 in funds put to better use.            under the direction of the OIG.              activities, the Corporation has lost a
Most of those charges were associated                                                       number of highly experienced man-
with a surcharge that MCI billed that          We also suggested that the FDIC settle       agers and senior technical experts. The
was not included in the original con-          with Aetna on an unresolved recom-           Corporation predicts that approximately
tract or in MCI’s tariff. Further, we iden-    mendation from a 1996 OIG Aetna              one of every six remaining FDIC
tified unsupported charges associated          audit involving amounts due the FDIC         employees will be eligible to retire by
with directory assistance and calling          for provider withholdings. Finally, we       year-end 2003. The Corporation has
card calls. MCI generally charged the          suggested that the FDIC make arrange-        been challenged to conserve and
FDIC appropriately for other long dis-         ments with Aetna to ensure enrollee          replenish the institutional knowledge
tance services that we reviewed. We            health claim records and supporting          and expertise that has guided the orga-
also concluded that MCI did not com-           documentation are maintained as long         nization over the past years.
ply with what we understood to be the          as statutorily necessary in the event of
intent of the contract price warranty          disputes or lawsuits. The Division of        The Corporation is developing a strat-
clause—to keep the Corporation’s long          Administration was receptive to both of      egy to ensure that a next generation of
distance rates competitive for the dura-       our suggestions and agreed to disallow       managers and senior professionals is
tion of the contract. We did not recom-        the overcharges.                             prepared to assume future leadership
mend that FDIC pursue recovery of                                                           positions in the FDIC as a 2000 corpo-
those charges because several factors                                                       rate annual performance goal.
limited the FDIC’s ability to legally
                                               Addressing Human                             Additionally, the Corporation’s Diversity
enforce the price warranty.                    Capital Issues                               Strategic Plan has been designed to
                                               In past semiannual reports we have           directly address the challenge of “insti-
ACSB staff discussed our preliminary           cited the changing environment at the        tutional knowledge and expertise.”
findings with MCI in June 2000. In late        FDIC as a major issue facing the
August 2000, MCI proposed a settlement         Corporation. We have noted that since        During 1999, the focus was on commu-
valued at almost $1.7 million. Specifically,   1994, as the work emanating from the         nicating the message of the Diversity
MCI agreed to: (1) issue an $882,640           banking and thrift crises has declined       Strategic Plan corporate-wide and
credit to the FDIC related to the unsup-       and continued consolidation of the           developing a framework for implemen-
ported surcharges (questioned costs), (2)      financial services industry has occurred,    tation of the plan. In 2000, the
correct the FDIC’s contract rate for direc-    the FDIC has accordingly reduced its         Corporation’s focus has been on the ini-
tory assistance charges, and (3) provide       workforce substantially. The workforce       tial implementation of the plan’s strate-
lower rates to the FDIC under a separate       has fallen from a high of about 15,600       gies and measuring their effectiveness.
Wide Area Network (WAN) contract. We           in mid-1992 to 6,733 as of September
estimated the latter two actions would         30, 2000. Much of the decline from the       The diversity plan includes proposed
reduce FDIC’s contract cost by at least        past semiannual reporting period is          actions in six areas:
$818,345 over the remaining term (funds        attributable to the June 30, 2000 clos-
put to better use) of the Voice and Video      ing of the Hartford Office. FDIC staffing    • Building commitment and develop-
and WAN contracts.                                                                            ing awareness,




                                                                 23
• Enhancing the corporate recruiting         • Talent to recruit, hire, develop, and     requested that the OIG wait to begin
  program,                                     keep appropriately skilled staff.         work until the contractor has provided
                                                                                         feedback related to human capital
• Creating developmental opportuni-          • Performance culture to enable             issues. The OIG plans to pursue further
  ties,                                        and motivate performance while            work once that has been accomplished.
                                               maintaining accountability and
• Enhancing the internal and external          fairness for all employees.               OIG Joins OICM in Follow-up
  selection processes,                                                                   Review of the FDIC’s Equal
                                             To implement this framework, organiza-      Employment Opportunity
• Addressing benefits and workplace          tions need information systems that         Complaint Process
  issues, and                                allow managers to identify skills imbal-    During the reporting period we partici-
                                             ances and project future needs. Also of     pated in a review that touched on a
• Monitoring progress and establish-         importance is that the human capital        human capital-related issue. The OIG
  ing accountability.                        strategy and workforce planning system      and the Office of Internal Control
                                             are directly linked to the organization’s   Management (OICM) conducted this
Focusing on the Corporation’s                overall strategic and performance plans.    review as a follow-up to previous
Most Important Asset                                                                     reviews that our offices performed in
The Corporation’s circumstances are          As discussed earlier in this section, to    1998. The review examined the extent
somewhat reflective of conditions gov-       address the changing environment at         to which the Office of Diversity and
ernment-wide. Comptroller General            the FDIC, the Corporation has begun         Economic Opportunity (ODEO) had
David Walker from the U.S. General           taking a closer look at its approach to     implemented recommendations and
Accounting Office (GAO) is champi-           doing business. With this approach, the     whether ODEO had improved its case
oning the concept of “human capital,”        Corporation is looking upon human capi-     processing time frames since 1998.
stating at a September 1999 confer-          tal as a corporate-wide issue and is
ence sponsored by the National               working to design associated strategies     We found that ODEO had made a num-
Academy of Public Administration in          and practices to directly support the       ber of positive changes to the discrimi-
Washington, D.C.: “The key competi-          achievement of its mission, strategic       nation complaint process since the
tive difference in the 21st century will     goals, and core values. A key activity in   1998 review that included: implement-
be people. It will not be process. It will   this regard is the Corporation’s recent     ing a more reliable case management
not be technology. It will be                Gallup survey of its employees. Through     and processing system, hiring new
people…The stakes are high.“ In short,       this Organizational Assessment Survey,      managers with equal employment
according to Mr. Walker, the govern-         the Corporation hopes to gain valuable      opportunity (EEO) experience from
ment cannot maximize its resources           insights that link employee opinions to     other agencies, and developing
and accountability without focusing on       workplace engagement and accomplish-        improved procedures. ODEO had fully
its most important asset: employees.         ment of the FDIC’s mission.                 or partially implemented 27 of the 43
He is urging all agency leaders to take                                                  recommendations we reviewed that
steps to improve their human capital         The FDIC, as well as other federal agen-    resulted from the prior reviews. Nine of
practices.                                   cies, may find it necessary to modernize    the 16 recommendations that were not
                                             its human capital policies and practices    implemented related to establishing
As a first step, GAO proposes a five-        by placing additional focus on employ-      performance expectations.
part self-assessment framework:              ees and aligning its “people policies.“
                                             Designing, implementing, and maintain-      With regard to processing time frames,
• Strategic planning to establish            ing effective human capital strategies      ODEO’s time frames for open com-
  agency mission, vision, core               are critical to improving performance       plaints in the final agency decision
  values, goals, and strategies.             and accountability.                         stage improved significantly since the
                                                                                         1998 OIG review – from an average of
• Organizational alignment to                The OIG has confirmed with the              620 days to 175 days. The elapsed day
  integrate human capital strategies         Corporation’s CFO that a review of the      average for the issuance of accept/dis-
  with core business processes.              FDIC’s efforts to manage human capital      miss letters also improved. However,
                                             would be beneficial. The FDIC’s             overall case processing statistics and
• Leadership to foster committed             Personnel Services Branch is working        time frames for the various complaint
  leadership and give continuity             with a vendor to define a process for       process stages continued to exceed
  through succession planning.               developing a human capital strategic
                                             plan. The Personnel Services Branch has




                                                               24
ODEO and federal EEO requirements             (3) Consumers’ Rights Are Protected           and recommendations from Results
and federal sector averages.                  and FDIC-Supervised Institutions Invest       Act reviews would be included in each
                                              in Their Communities, and (4) Recovery        subsequent semiannual report. The
The results of this review assisted man-      to Creditors of Receiverships Is              Congress attaches great importance to
agement in determining the appropriate        Achieved. Additionally, the basic operat-     effective implementation of the
reporting of the EEO complaint process        ing principle for the FDIC is the effective   Results Act and believes that
in the Chief Financial Officers Act report.   management of strategic resources.            Inspectors General have an important
It also served as a revised baseline from     Through its annual performance reports,       role to play in informing agency heads
which ODEO could continue to make             the FDIC will be accountable for report-      and the Congress on a wide range of
strides in improving the process.             ing actual performance and achieving          issues concerning efforts to imple-
Further, the partnership of our Office of     strategic results, which are closely          ment the Results Act. We believe the
Congressional Relations and Evaluations       linked to the major issues discussed in       congressional guidance represents an
and OICM in performing this review pro-       this semiannual report.                       appropriate direction for all Offices of
vided valuable insight into each of the                                                     Inspector General.
two offices’ review processes.                The Corporation has made significant
                                              progress in implementing the Results          OIG’s Results Act Review Plan
                                              Act and will continue to address the          The FDIC OIG is fully committed to tak-
Establishing Goals                            challenges of developing more out-            ing an active role in the Corporation’s
and Measuring                                 come-oriented performance measures,           implementation of the Results Act. We
                                                                                            have developed a Results Act review
                                              linking performance goals and budgetary
Results                                       resources, and establishing processes
                                                                                            plan to help ensure that the Corporation
                                                                                            satisfies the requirements of the Results
The Government Performance and                to verify and validate reported perfor-       Act and maintains systems to reliably
Results Act (Results Act) of 1993 was         mance data. The FDIC is committed to          measure progress toward achieving its
enacted to improve the efficiency,            fulfilling both the requirements of the       strategic and annual performance goals.
effectiveness, and accountability of          Results Act and congressional expecta-        Our review plan consists of the following
federal programs by establishing a sys-       tions that the plans clearly inform the       three integrated strategies:
tem for setting goals, measuring per-         Congress and the public of the perfor-
formance, and reporting on accomplish-        mance goals for the FDIC’s major pro-         • Linking Planned Reviews to the
ments. Specifically, the Results Act          grams and activities, including how the         Results Act. We will link planned
requires most federal agencies, includ-       agency will accomplish its goals and            reviews to corporate strategic goals
ing the FDIC, to prepare a strategic          measure the results.                            and annual performance goals and
plan that broadly defines the agencies’                                                       provide appropriate Results Act
mission, vision, and strategic goals and                                                      coverage through audits and
                                              OIG Formulates Results Act
                                                                                              evaluations. As part of this strategy,
objectives; an annual performance plan        Review Plan                                     one of the goals of our planning
that translates the vision and goals of       On October 7, 1998, the Congressional           effort this year is to align our audit
the strategic plan into measurable            House Leadership sent a letter to the           work more closely with the
annual goals; and an annual perfor-           Inspectors General of 24 executive              Corporation’s strategic plan and
mance report that compares actual             agencies requesting that they develop           performance goals.
results against planned goals.                and implement a plan for reviewing
                                              their agencies’ Results Act activities.       • Targeted Verification Reviews.
The Corporation’s strategic plan and          The Results Act review plan would be            We will maintain a program of
annual performance plan lay out its           submitted as part of the OIG’s semian-          independent reviews to evaluate the
mission and vision and articulate goals       nual reports to the Congress (and               adequacy and reliability of selected
and objectives for the FDIC’s three           updated at least annually thereafter)           information systems and data
major program areas: Insurance,                                                               supporting FDIC performance
                                              and would examine (1) agency efforts
Supervision, and Receivership                                                                 reports. The OIG has developed a
                                              to develop and use performance mea-             standard work program to conduct
Management. The plans focus on four           sures for determining progress toward           these evaluations.
strategic results that define desired         achieving performance goals and pro-
outcomes identified for each program          gram outcomes described in their              • Advisory Comments. We will
area. The four strategic results are: (1)     annual performance plan and (2) verifi-         continue our practice of providing
Insured Depositors Are Protected from         cation and validation of selected data          advisory comments to the
Loss Without Recourse to Taxpayer             sources and information collection and          Corporation regarding its update or
Funding, (2) Insured Depository               accounting systems that support
Institutions Are Safe and Sound,              Results Act plans and reports. Findings




                                                                25
  cyclical preparation of strategic and     similar analyses done for other depart-    major issue areas. We also found a
  annual performance plans and reports.     ments and agencies. Consequently, we       close relationship between the annual
                                            analyzed the FDIC’s performance report     goals and mission-related strategic
Representative examples of OIG              in the same general framework as           results included in the FDIC’s strategic
results and reviews during the report-      requested in the letter to the IGs. Our    plan. Our response noted improve-
ing period that are linked to Result Act    analysis was provided to Senator           ments the Corporation has made in the
issues and concepts follow:                 Thompson, other congressional com-         2000 performance plan and included
                                            mittees, OMB, and FDIC management          several suggestions for the Corporation
• In a survey of new failed bank            for their use and consideration.           to consider to further improve the value
  resolution methodologies being                                                       and usefulness of its performance
  developed by the DRR, we noted            Senator Thompson’s letter referenced       plans and reports. These suggestions
  that DRR is making steady progress        key management challenges that he          include considering more specific goals
  in its efforts to make the resolution     had previously asked IGs to identify in    or targets for the FDIC’s critical priori-
  process more effective, efficient, and    their agencies and requested that          ties and emerging risks, considering
  diversified. Additionally, in             these management challenges be used        developing an annual goal or goals
  conducting our survey we identified       as a framework for the requested OIG       related to the OIG-identified major
  several issues that we believe DRR        analysis. For the FDIC, we identified      issue area of contractor oversight, and
  should be mindful of in developing        these management challenges as             including a discussion of data quality in
  and implementing new strategies.          “major issues“ facing the Corporation      future performance reports.
  Addressing these issues should            and have discussed these major issues
  assist the Corporation in meeting its     in our semiannual reports to the           The OIG will continue to develop and
  2000 annual performance goal              Congress. For purposes of our              refine its integrated oversight strategy
  related to improving the FDIC’s core      response, we analyzed the FDIC’s 1999      so that the OIG’s Results Act-related
  business processes and responding         Program Performance Report in the          efforts fully conform to the spirit and
  to changes in the financial industry.     framework of the seven “major              intent of the Act. We plan to continue to
                                            issues“ identified in our March 2000       work with the Corporation to improve
• As part of our program of targeted        Semiannual Report to the Congress.         the FDIC’s performance measurement
  verification reviews, we are currently                                               and reporting through our audits, evalua-
  evaluating the degree to which FDIC       We found a close relationship between      tions, and management advisory
  program offices are verifying and vali-   the FDIC’s annual goals and the OIG’s      reviews and analyses. The OIG will also
  dating information presented in FDIC      major issues (management challenges).      continue to monitor and review legisla-
  performance reports. The intent of        Our analysis indicated that 30 of the      tion proposed in the Congress to amend
  this review is to evaluate the            Corporation’s 31 annual performance        the Results Act and will actively partici-
  corporate-wide processes and              goals related directly to one of the       pate to refine appropriate OIG Results
  practices used to verify and validate     seven major issues identified in our       Act roles, responsibilities, and activities
  performance data. The review will         March 2000 semiannual report and that      through the President’s Council on
  be completed and its results              the FDIC has annual goals in five of the   Integrity and Efficiency and the inter-
  reported in the next semiannual                                                      agency groups it sponsors.
  period.

OIG Reviews FDIC 1999 Program
Performance Report
During this reporting period, we pro-
vided Senator Fred Thompson,
Chairman of the Senate Governmental
Affairs Committee, with the results of
our analysis of the FDIC’s 1999
Program Performance Report. Senator
Thompson had requested that the GAO
and the Inspectors General (IGs) of 24
major federal departments and inde-
pendent agencies review and analyze
the fiscal year 1999 performance
reports for their department or agency.
The FDIC was not one of the 24 agen-
cies specifically included in Senator
Thompson’s request; however, we                                                           Summer interns assist in accomplishing
                                                                                          the OIG’s mission.
were aware of his interest in having




                                                             26
                GAO/OIG’s                        Where have we been? In 1996, the FDIC OIG and U.S. General Accounting
                Successful                       Office (GAO) management formed an important partnership. Its primary
                Financial                        goal was to train certain OIG staff to perform and assume full responsibility
                Statement                        for the financial statement audits of the FDIC. Every year since then the OIG
                Audit                            auditors have been provided with a combination of on-the-job and formal
                Partnership                      classroom training in financial audit techniques and theory. By 1998, GAO
                Continues to                     began to rely on the OIG’s work for designated audit segments. All of the
                Evolve                           regional work (performed in the Dallas regional office) and selected head-
                                                 quarters segments were conducted under GAO’s direction. Guided by pro-
                                                 fessional standards, GAO maintained full responsibility for the audits and
                                                 continued to approve key planning documents, work programs, time
                                                 frames, and final work products for the OIG-designated areas. For its part,
                                                 the OIG was responsible for implementing and conducting the work.
                                                 Where are we now? The process of transferring full responsibility for the
                                                 annual financial statement audit from GAO to the FDIC OIG continued
                                                 during the reporting period. The joint team issued its final report on the
                                                 1999 statements to the Corporation in May 2000. [Federal Deposit
W. Kevin Hainsworth (l) and Ross Simms (r)       Insurance Corporation’s 1999 and 1998 Financial Statements
lead the OIG’s financial statement audit team.
                                                 (GAO/AIMD-00-157, May 26, 2000).] Significantly, the Corporation received
                                                 an unqualified opinion from the auditors. In August 2000, the OIG’s Deputy
                                                 Assistant Inspector General from the Dallas office reported to Washington
                                                 to join and lead headquarters staff in conducting the 2000 audit. For the
                                                 2000 audit, the OIG will have full responsibility for 16 of 22 components.
                                                 The entire team is committed to ensuring that in addition to focusing on
                                                 the fairness of the statements in presenting the corporate financial results,
                                                 the team’s efforts will also lead to process improvements, influence man-
                                                 agement and policy decisions, and further promote public confidence in the
Sharon Spencer, member of the OIG’s              Corporation.
financial statement audit team.
                                                 Where are we going? For the ongoing audit, the team has adopted a
                                                 “continuous audit“ methodology for selected areas in headquarters and
                                                 Dallas. As part of this approach, the team will report the results of field-
                                                 work and testing simultaneously with, or a short time after, the occurrence
                                                 of testing. Selected areas include net receivables, receivership receipts and
                                                 disbursements, investments, operating expenses, and some securitization-
                                                 related transactions. The team plans on performing monthly analyses of its
                                                 results that will then be communicated to FDIC management. By present-
                                                 ing the client with more current and immediate feedback on issues directly
                                                 affecting the Corporation, we are confident we can add more value as part
                                                 of the financial statement audit efforts. The team’s goal is to deliver its final
                                                 report for the 2000 audit to the Corporation by the end of April 2001,
                                                 thereby enhancing overall timeliness by 1 month.
                                                 Special Note: The OIG sincerely thanks Jeanette Franzel, Assistant
                                                 Director, Corporate Audits and Standards, U.S. General Accounting Office,
                                                 for the leadership role she has played on the financial statement project
                                                 over the past 4 years.




                                                                      27
                                    Investigative Statistics

                                    Judicial Actions:
                                     Arrests                                                             2
                                     Indictments/Informations                                           15
                                     Convictions                                                        11

                                    Actions Involving FDIC Employees as a Result of
Investigations
                                    Investigations:
                                      Suspensions                                                         1
                                      Resignations                                                        2

                                    Actions Involving Parties Affiliated with Financial
                                    Institutions as a Result of Investigations:
                                      Removals                                                            1
                 Investigations




                                    OIG Investigations Resulted in:
                                     Fines of                                                $ 182,500
                                     Restitution of                                           1,001,999
                                     Monetary Recoveries of                                   3,493,381
                                     Forfeitures based on Asset Seizures                      6,031,569
                                     Total                                                  $10,709,449

                                    Cases Referred to the Department of Justice
                                    (U.S. Attorney)                                                     22

                                    Referrals to FDIC Management                                        11

                                    OIG Cases Conducted Jointly with Other
                                    Agencies                                                            52



                                  The Office of Investigations (OI) is         FDIC and other victims from further
                                  responsible for carrying out the inves-      harm, and assist the FDIC in recovery of
                                  tigative mission of the OIG. Staffed         its losses. Another consideration in ded-
                                  with agents in Washington, D.C.,             icating resources to these cases is the
                                  Atlanta, Dallas, Chicago, and San            need to pursue appropriate criminal
                                  Francisco, OI conducts investigations of     penalties not only to punish the offender
                                  alleged criminal or otherwise prohibited     but also to deter others from participat-
                                  activities impacting the FDIC and its pro-   ing in similar crimes.
                                  grams. As is the case with most OIG
                                  offices, OI agents exercise full law
                                  enforcement powers as special deputy
                                                                               Joint Efforts
                                  marshals under a blanket deputation          The OIG works closely with U.S.
                                  agreement with the Department of             Attorneys’ Offices throughout the coun-
                                  Justice. OI’s main focus is investigating    try in attempting to bring to justice indi-
                                  criminal activity that may harm, or          viduals who have defrauded the FDIC.
                                  threaten to harm, the operations or the      The prosecutive skills and outstanding
                                  integrity of the FDIC and its programs.      direction provided by Assistant United
                                  In pursuing these cases, our goal, in        States Attorneys with whom we work
                                  part, is to bring a halt to the fraudulent   are critical to our success. The results
                                  conduct under investigation, protect the     we are reporting for the last 6 months




                                                    28
reflect the efforts of U.S. Attorneys’        charges. Eleven defendants were con-           ducted jointly with the FBI, was initiated
Offices in the District of Massachusetts,     victed during the period. Criminal             at the request of the U.S. Attorney’s
the District of Maryland, the Eastern         charges remained pending against 13            Office, Southern District of Illinois.
District of Virginia, the Southern District   individuals as of the end of the reporting
of West Virginia, the Southern District of    period. Fines, restitution, and recoveries     Two Bank Officials Receive Maximum
Illinois, the Southern District of Ohio,      stemming from our cases totaled over           Sentence for Obstructing a Bank
the Western District of North Carolina,       $10.7 million. Our investigations involv-      Examination and/or Conspiracy
the District of South Carolina, the           ing FDIC employees resulted in a sus-          Following her conviction in April for
Northern District of Georgia, the Middle      pension of one employee. Additionally,         obstructing a bank examination and con-
District of Florida, the Southern District    two employees resigned while under             spiracy, the former Senior Executive
of Florida, the Eastern District of           investigation. Based on information            Vice President of the now defunct First
Oklahoma, the Northern District of            developed during a criminal investigation      National Bank of Keystone, Keystone,
Texas, the Western District of Texas,         conducted by the OIG, the FDIC also            West Virginia, who also served as
and the District of Hawaii.                   issued an order prohibiting the former         President of Keystone Mortgage
                                              Executive Vice President of a financial        Company, a subsidiary of the bank, was
Support and cooperation among other           institution from participating in the con-     sentenced in July 2000 to 57 months’
law enforcement agencies is also a key        duct or affairs of any federally insured       imprisonment and fined $100,000. A
ingredient for success in the investiga-      depository institution. The following are      second bank official, the former
tive community. We frequently partner         highlights of our investigative activity       Executive Vice President of the mort-
with the Federal Bureau of Investigation      over the last 6 months.                        gage company who was also convicted
(FBI), Internal Revenue Service (IRS),                                                       at the trial on charges of obstructing a
Secret Service, and other law enforce-        Fraud Arising at or Impacting                  bank examination, was sentenced to
ment agencies in conducting investiga-        Financial Institutions                         51 months’ imprisonment and fined
tions of joint interest.                                                                     $7,500. Following their incarcerations,
                                              Former Bank Officer Pleads Guilty to           both will also be placed on 3 years’ pro-
In recognition of the success that has        Obstructing Bank Examination and               bation. The defendants received maxi-
been achieved in one case through the         Bank Customer Charged with                     mum sentences, in part, for lying under
combined investigative and prosecutive        Conspiracy to Defraud Bank                     oath. This is part of an ongoing case
team approach, two OIG Special Agents         The former Executive Vice President            that is being investigated by a multi-
were among those honored during this          of Murphy Wall State Bank,                     agency task force that includes Special
period for their outstanding contributions    Pickneyville, Illinois, pleaded guilty to      Agents of the FBI, FDIC OIG, and IRS.
in the investigation of bank officials at     a one-count Information charging him
the now defunct First National Bank of        with obstructing the examination of a          As we reported previously, the charges
Keystone, Keystone, West Virginia. The        financial institution. In addition, the        against these officials were based on
awards were presented at the annual           former Executive Vice President of             their actions to obstruct an examination
law enforcement awards ceremony of            the bank signed a Stipulation and              of the bank by the Office of the
the U.S. Attorney’s Office for the            Consent agreement with the FDIC                Comptroller of the Currency that ulti-
Southern District of West Virginia. As        resulting in a corresponding order pro-        mately culminated in its closure on
described in further detail below, the        hibiting him from participating in the         September 1, 1999. Among the actions
investigation is being conducted by a         operations or affairs of any federally         taken to obstruct the examination was
multi-agency task force and resulted in       insured depository institution. In a related   the burial of several dumptruck loads of
the convictions of two bank officials on      action on the same case, the owner of a        bank documents and microfilm on a
charges of obstructing a bank examina-        company that was a customer of the             ranch owned by one of the convicted
tion during this period.                      bank was indicted on several charges           officials and her husband. A search of
                                              relating to an alleged conspiracy to           the ranch by investigators resulted in the
                                              defraud Murphy Wall State Bank by              recovery of buried bank records that
Results                                       obtaining approximately $6 million in loans    filled 370 file boxes. The obstruction
During the reporting period, OI opened        through false pretenses and representa-        investigation and a corresponding investi-
22 new cases and closed 35 cases,             tions. The disposition of the charges          gation of the circumstances leading to
leaving 149 cases underway at the end         against the company owner is pending           the failure of the bank are being con-
of the period. Our work during the            the results of his trial, which was sched-     ducted by a multi-agency task force com-
period led to either indictments or crimi-    uled to begin after the current reporting      prised of Special Agents of the FBI, FDIC
nal charges against 14 individuals, one       period ended. The OIG’s participation in       OIG, IRS, U.S. Postal Inspection Service,
of whom was indicted on 2 separate            this investigation, which is being con-        and U.S. Department of Treasury OIG.




                                                                 29
Illinois Resident Whose Company               salesmen told individuals with poor         misapplied the embezzled money into
Serviced Credit Cards for 10 Banks            credit histories that they could obtain     her personal bank account and bank
Pleads Guilty to One Count of Bank            financing from Comerica Bank if they        accounts of members of her family.
Fraud                                         would purchase automobiles through          This case was investigated by the OIG
Following his indictment in May 2000, an      them. Additionally, the salesmen were       and is being prosecuted by the United
Illinois resident who operated a company      alleged to have submitted to the bank       States Attorney’s Office for the Eastern
that serviced credit cards for 10 banks       documents through the branch                District of Oklahoma.
located in Illinois, Ohio, and New York       employee that falsely inflated each auto-
pleaded guilty in June to one count of        mobile purchase price for the purpose       Owner of Bank of Honolulu Is
bank fraud. The FDIC is the primary reg-      of deceiving the bank about the amount      Arrested for Bankruptcy Fraud
ulator of 3 of the 10 banks. The indict-      of the downpayment, if any, made by         Following a three-count federal indict-
ment and corresponding plea involved          the applicant. The loan applications sub-   ment for bankruptcy fraud, the owner
charges that he made false representa-        mitted were also alleged to have con-       and former chairman of the FDIC-regu-
tions to these banks as to the amount of      tained false personal information, false    lated Bank of Honolulu, Honolulu,
money credited to and debited from            credit references, and false social secu-   Hawaii, was arrested on August 30,
their accounts and, from time to time,        rity numbers. This case was jointly         2000. The defendant had filed for
withdrew funds from the banks’                investigated by the OIG and the FBI.        bankruptcy protection in 1998, listing
accounts without authorization. This                                                      $9.3 million in assets and almost $300
case was jointly investigated by the OIG      Former Senior Vice                          million in debts. The indictment alleges
and FBI.                                      President/Director and Former               that he fraudulently funneled millions of
                                              Internal Control Officer of Bank Plead      dollars from the sale of a Gulfstream jet
Dallas Banker and Two Dallas                  Guilty to Misapplication of Funds and       to personal bank accounts and did not
Residents Plead Guilty to Conspiracy          Embezzlement, Respectively                  disclose the transfers to bankruptcy
to Submit False Loan Applications to          A former senior vice president and direc-   court officials. He is also accused of
a Financial Institution                       tor of Fort Gibson State Bank, an FDIC-     diverting more than $757,000 in Hawaii
Two Dallas residents who had been             insured bank in Fort Gibson, Oklahoma,      state tax refunds from the bankruptcy
employed as car salesmen pleaded guilty       was charged and pleaded guilty to one       trustee. Because he is a foreign
to conspiracy to submit false loan appli-     count of misapplication of funds. He        national who resides in Macau and
cations to the FDIC-insured Comerica          was sentenced to 3 years’ probation. In     Singapore, he was arrested while he
Bank. A third defendant who had been          his plea agreement, the Senior Vice         was in Hawaii attending a meeting of
employed at the Wynnwood Center               President and Director confessed that       creditors at the office of the bankruptcy
branch of Comerica Bank also pleaded          while employed at the bank, he had fal-     trustee. This case is being jointly
guilty to a charge of having made false       sified entries in the computerized          investigated by the OIG and FBI.
entries in the records of the bank.           records of the bank. He also confessed
                                              that he had made unauthorized with-         Georgia Resident Sentenced to
As previously reported, in February           drawals from custodial accounts for his     18 Months’ Incarceration, 5 Years’
2000, the defendants were charged in          own benefit and to make payments on         Probation, and Ordered to Pay
an indictment with conspiring to defraud      past due loans held by the bank. The        $190,000 in Restitution
Comerica Bank by submitting and caus-         unauthorized withdrawals were intended      A case that we previously reported was
ing to be submitted false information to      to conceal loan delinquencies from other    concluded during this period with the
influence the bank to approve car loans       officers and directors of the bank, the     sentencing of the defendant who had
under the Community Reinvestment Act          FDIC, and bank examiners. They were         pleaded guilty to bank fraud. The
Automobile Purchase Loan Program.             also used to make loans to third parties    Georgia resident, who was a customer
The program was instituted to help low-       without the bank’s knowledge, review,       of Security State Bank, an FDIC-insured
to moderate-income individuals with lit-      or approval.                                institution in Canton, Georgia, was sen-
tle or no established credit histories                                                    tenced to 18 months’ incarceration,
obtain automobile financing. The three        Based on information obtained as a part     5 years’ probation, and ordered to pay
defendants were alleged to have falsely       of the same investigation, the former       $190,000 in restitution to the bank. The
represented loan applicants’ social secu-     Internal Control Officer of the bank was    investigation disclosed that he had
rity numbers to Comerica Bank and sup-        charged and pleaded guilty to one count     deposited two $95,000 checks that he
plied fictitious credit references with the   of embezzlement. In her plea agree-         knew to be counterfeit into an account
intent to deceive the bank relative to the    ment she confessed that while               at the bank and later withdrew the
applicants’ credit histories. As              employed by the bank, she embezzled         funds. This case was jointly investi-
described in the indictment, the two          in excess of $250,000 of bank funds and     gated by the OIG and FBI and was pros-




                                                               30
ecuted by the U.S. Attorney’s Office for     investigation. However, the debtors had       Contractor Agrees to Pay $300,000
the Northern District of Georgia.            made no payments to the FDIC, claim-          Civil Settlement
                                             ing they were insolvent. During the OIG       Based on allegations contained in a civil
Restitution and Other Debt                   investigation it was found that the           complaint filed by a private citizen, the
Owed the FDIC                                debtors had significant assets at their       Department of Justice and the OIG initi-
                                             disposal that they had concealed from         ated an investigation of false claims filed
Debtor Arrested for Violating                the failed banks and the FDIC. The            by an FDIC contractor for reimbursement
Probation by Failing to Disclose             investigation regarding the financial         of claimed expenses for environmental
Assets Available to Pay Court-               information previously submitted by the       remediation work at Golden Ocala Golf
Ordered Restitution                          debtors is continuing.                        Course, Ocala, Florida. An investigation
An investigation conducted by the OIG                                                      determined that the defendant submit-
found that a debtor who had stopped          Management and Disposition of                 ted three false invoices and bogus sup-
making his required restitution pay-         Assets of Failed Financial                    port documents to the FDIC. The submit-
ments to the FDIC had several busi-          Institutions                                  ted documentation purported that the
nesses and bank accounts, including an                                                     defendant’s partnership had paid a
account in New Zealand, that he had          Contract Auctioneer Sentenced for             nonexistent company $240,000 for work
failed to disclose to the District of        Embezzling Funds from the FDIC                that was actually performed by other
Rhode Island U.S. Probation Office.          The prosecution of a Florida auctioneer       companies at a total cost of $51,376.
Further, the investigation found that the    and his company was concluded during          Based on this false documentation, the
individual had laundered income through      this period when they were sentenced          FDIC reimbursed the partnership
one of these businesses and placed the       in April following their guilty pleas to      $150,000 for expenses. In September
proceeds into his children’s trust           embezzling funds from the Corporation,        2000 the defendant entered into an
accounts. Using this information, it was     as we previously reported. The auction-       agreement wherein he will pay the gov-
determined that the debtor had violated      eer was sentenced to serve 5 months           ernment $300,000 to settle the civil com-
his probation, and he was arrested.          of confinement, 150 days of home              plaint. The criminal case is pending
Subsequently, the individual admitted to     detention, and 1 year of probation and        action by the Middle District of Florida.
a federal magistrate that he had pro-        to pay a fine of $75,000. He and his
vided false and misleading information       company were also ordered to pay resti-       Former FDIC Contractor Is Indicted on
to the U.S. Probation Office and had not     tution jointly and severally of $118,130      38 Counts of Wrongdoing, Including
disclosed all of his assets on his per-      to the FDIC. The company was also             Obstruction of an OIG Audit and
sonal financial statement. The individual    placed on probation for 3 years.              Investigation
also agreed to pay his restitution in full                                                 A former FDIC contractor who had been
to the FDIC.                                 As receiver of failed FDIC-insured banks,     retained by the FDIC to manage the
                                             the Corporation manages and liquidates        Shelter Cove R.V. Resort, an FDIC-
FDIC Debtors Pay FDIC over                   the assets of failed banks. The               owned property in St. Cloud, Florida,
$3 Million in Interest on Past               Corporation contracted with the two           was indicted on 38 counts of various
Indebtedness                                 defendants (the auctioneer and his com-       types of criminal activities including sub-
In April 2000, the FDIC received             pany) to organize and conduct numerous        mission of false invoices, false state-
$3,148,540 from two FDIC debtors in          auctions and sales of such assets.            ments and representations, bid-rigging,
payment of interest that had accrued on      Following these auctions and sales, the       and the obstruction of an OIG audit and
debts they previously owed the FDIC.         defendants were required to remit the         subsequent OIG investigation.
As we reported previously, the debtors       proceeds, less certain advertising and
paid the FDIC the full principal balance     labor costs and certain credits approved      According to the indictment, in 1994 the
of their debt, which amounted to             by the FDIC, to the Corporation. The          defendant hired a subcontractor to per-
$6.5 million, in March 2000 following        defendants were also required to provide      form repairs to the water and waste-
the initiation of an OIG investigation and   the FDIC with recapitulations that            water systems at Shelter Cove. The
the issuance of OIG subpoenas for            reflected, among other things, the win-       contractor and subcontractor are alleged
records. The debtors had borrowed            ning bid amounts, items sold, and total       to have then established a wastewater
these monies in the late 1980s and early     proceeds. The investigation disclosed         treatment company. When repairs were
1990s from several banks that subse-         that the defendants (1) submitted fraudu-     performed at Shelter Cove, the contrac-
quently failed in the New England area.      lent recapitulations, substantially misrep-   tor allegedly submitted invoices to the
As the receiver for the failed banks, the    resenting and underreporting the pro-         FDIC indicating that the subcontractor,
FDIC made substantial efforts to resolve     ceeds, and (2) remitted proceeds based        individually, had done the work. The
these debts prior to the initiation of our   on these recapitulations.                     invoices were submitted on letterhead




                                                               31
with the subcontractor’s name and           six FDIC-insured financial institutions         ment through deception. This case was
home address at the top. The contractor     but retained the remaining 10 percent           investigated by the OIG and the Texas
paid the subcontractor with checks that     of ownership, including servicing rights.       State Securities Board and is being pros-
were cashed and the proceeds of which       Following Alpine’s receivership, the            ecuted by the Bexar County District
were deposited into a bank account          defendant collected monthly mortgage            Attorney’s Office, San Antonio, Texas.
belonging to the partnership wastewater     payments directly from borrowers; he
treatment company. The contractor later     forwarded 90 percent of the payments            The defendant essentially sold–through
received money from the account. In         to the six financial institutions and the       his investment company–certificates of
1996 when he filled out and signed an       remaining 10 percent to First Nationwide        deposit (CD) for thousands of dollars and
FDIC Representations and Certifications     Mortgage, a master servicer for the             obtained loans and loan proceeds by
statement, the contractor did not reveal    FDIC, and provided reports to all               pledging CDs sold. Among the charges
the conflict of interest based on his       seven entities.                                 are that he engaged in fraud by inten-
involvement in the partnership.                                                             tionally failing to disclose that he had
Likewise, in 1998 during an OIG audit of    With respect to 15 mortgage loans, the          (1) been convicted of felony theft in
Shelter Cove management contracts, he       investigation disclosed that the defen-         1987 and securities fraud in 1993 and
did not disclose his affiliation with the   dant failed to forward $693,869 in loan         (2) caused to be created six purported
partnership to the auditors. Further, in    payoff proceeds that he had collected.          Bank of America (BOA) CDs totaling
1999 during the OIG investigation of the    He covered the theft by continuing to           over $500,000 and bearing the names of
contractor, he allegedly instructed the     submit monthly payments and reports             six individuals and six account numbers
subcontractor to conceal any checks         to the 90-percent owners as if the loans        when, in fact, the six CDs bearing these
written on the partnership account that     that had been paid off were still active.       account numbers were in the name of
were made payable to the contractor.        The OIG investigated the loans at five of       his investment company on BOA’s
As a result, a total of more than $37,400   the financial institutions; the FBI investi-    records. Additionally, relative to a sev-
in such checks was concealed from OIG       gated the loans at the sixth. Although          enth individual, the defendant is charged
agents. Relative to Shelter Cove repairs    all six institutions are located in different   with (1) misapplying over $100,000 that
costing more than $1,000 and thus           judicial districts and the investigation        he held as a fiduciary on behalf of the
requiring the provision of three bids to    was coordinated with the U.S.                   individual, (2) unlawfully appropriating
the FDIC, the contractor purportedly also   Attorneys’ Offices of those districts, it       over $100,000 of the individual’s money,
submitted false and forged bids from        was agreed that the defendant would             and (3) causing the individual to execute
other contractors to ensure that his own    be charged only in Ohio.                        a document by deception affecting over
bid would be the lowest.                                                                    $100,000 of his money.
                                            Misrepresentations Regarding
Former FDIC Loan Servicer Is                Investments and Allegedly                       As a part of the same case, in July
Sentenced to 5 Months’ Incarceration        FDIC-Insured Deposits                           2000, a grand jury returned a four-count
and Ordered to Make Full Restitution                                                        indictment against a Texas resident who
of Almost $700,000 for Bank Fraud           Bexar County, Texas, Grand Jury                 was formerly employed with BOA
After pleading guilty in January 2000       Returns Five-Count Indictment                   Texas, N.A., as a financial relationship
to one count of bank fraud, a former        Against Convicted Felon for                     manager in San Antonio. The defendant
loan servicer for the FDIC was sen-         Securities Fraud and Other Related              was charged with one count of conspir-
tenced in July to 5 months’ incarcera-      Crimes and Four-Count Indictment                ing with the defendant in the June
tion to be followed by 5 years of           Against Former Bank of America                  indictment to unlawfully make and utter
supervised probation and to perform         Manager for Conspiracy and                      and possess forged securities with the
100 hours of community service.             Possession of Forged Securities                 intent to deceive another person.
Additionally, he was ordered to make        Based on an OIG investigation, in June          Additionally, he was charged with three
full restitution of $693,869.               2000, a Bexar County, Texas, grand jury         counts of making and uttering a forged
                                            returned a five-count indictment against        security of an organization with the
As previously reported, the defendant       a convicted felon and San Antonio resi-         intent to deceive another individual.
was a loan servicer for a portfolio of      dent who was the owner of a purported
mortgage loans made by the now              investment company. The defendant               According to the indictment, the co-con-
defunct Alpine Savings, Steamboat           was charged with two first degree               spirators told prospective investors,
Springs, Colorado. Prior to being placed    felony counts of securities fraud and           many of whom are elderly, that they had
into receivership by the Resolution Trust   one first degree felony count each of           a special arrangement (which they did
Corporation in 1990, Alpine had sold 90     misapplication of fiduciary property,           not have) with BOA. The conspirators
percent of its ownership in the loans to    theft, and securing execution of a docu-        told investors that because of the spe-




                                                                32
cial relationship with BOA, the investors     the charges were that he engaged in          defendant began advertising the sale of
would receive a higher-than-usual rate of     fraud by intentionally failing to disclose   CDs offering high rates of return. He
interest if they purchased BOA CDs            that he transferred such proceeds to         caused mostly elderly individuals to pur-
through the conspirators. The co-con-         bank and brokerage accounts of busi-         chase the CDs and wire-transfer their
spirators would then pledge the CDs as        nesses he controlled and used proceeds       funds to the BOA in Dallas by represent-
security for loans made to themselves.        for personal expenses and the purchase       ing to them that each CD was issued by
Allegedly, the former BOA employee            of a personal residence. Additionally, he    the BOA and FDIC-insured up to
(1) gave investors a BOA deposit slip         was charged with misrepresenting that        $100,000 as well as privately insured.
when they invested with the co-conspir-       he was offering CDs that would be            Further, he represented that the money
ators, thereby falsely assuring investors     issued through an FDIC-insured bank,         for the CDs was being invested in a
that the CDs with BOA were legitimate;        while knowingly omitting the material        Dallas bank. In fact, however, the CDs
(2) deposited investors’ funds into bank      fact that any purported FDIC insurance       were issued by an entity that the defen-
accounts owned and controlled by the          would not protect investors from losses      dant had established for the purpose of
co-conspirator’s company; and (3) cre-        of their investment funds due to the         collecting money from unwary investors
ated, or had another BOA employee cre-        defendant’s default on his loans. As a       and funneling it into his planned invest-
ate at his direction, CD records which        result of the case, a combined total of      ment with the third company.
falsely stated that the account holder        $4.6 million has been recouped from          Additionally, none of the CDs was sepa-
was the investor. However, the account        American Bank of Commerce and Wells          rately insured by the FDIC or privately
numbers shown on the CD records               Fargo Bank, which held the defendant’s       insured. Rather, more than $1.3 million
were those of accounts owned and con-         fraudulently derived CDs as collateral on    of the sale proceeds was commingled in
trolled by the co-conspirator’s company.      loans he used to purchase a home,            a single bank account in Dallas, resulting
                                              lease exotic cars, and obtain other per-     in FDIC insurance of only $100,000 of
President/Owner of Investment                 sonal items. These recovered funds will      this amount. Moreover, the indictment
Company Indicted for Securities               be returned to the victims.                  alleged that it was the plan and intent of
Fraud and Other Related Felonies                                                           the defendant and his associates to
In June 2000, a Bexar County, Texas,          Owner/Manager of Oklahoma City               remove the money from the account
grand jury returned a six-count indict-       Insurance Agency Pleads Guilty to            and make high-risk investments that
ment against a San Antonio resident           One Count of Securities Fraud in             were not FDIC-insured.
who was the former president and              Excess of $44,000
owner of a now defunct investment             Following an April 2000 indictment, an       North Carolina Man Is Charged with
company. The defendant was charged            Oklahoma resident pleaded guilty in          and Pleads Guilty to One Count of
with one first degree felony count each       May to one count of securities fraud of      Money Laundering
of securities fraud, sale of unregistered     more than $44,000. The defendant is          In August 2000, a resident of Charlotte,
securities, acting as an unregistered         the principal owner/manager of an insur-     North Carolina, pleaded guilty to one
securities dealer, theft, misapplication of   ance agency located in Oklahoma City,        count of money laundering. The defen-
fiduciary property, and securing execu-       Oklahoma. This case was jointly investi-     dant had been charged in July with
tion of a document through deception.         gated by the OIG, U.S. Secret Service,       knowingly conducting and attempting to
In July the defendant was indicted on         and FBI. The case is being prosecuted        conduct a financial transaction affecting
three additional counts. The second           by the U.S. Attorney’s Office for the        interstate commerce–the transfer of
indictment charged the defendant with         Northern District of Texas.                  funds to First Union National Bank,
one first-degree felony count each of                                                      credit card companies, and other entities
misapplication of fiduciary property, theft   The indictment charged that the defen-       from a Wachovia Bank account contain-
(of over $100,000), and securing execu-       dant, having been dissatisfied with the      ing fraudulently obtained funds in
tion of a document through deception.         profits of his insurance agency and,         excess of $1 million. The charges fur-
This case was investigated by the OIG         aided and abetted by others, began           ther alleged that in conducting the trans-
and is being prosecuted by the Bexar          seeking high-risk investments that           action, the defendant knew that (1) prop-
County District Attorney’s Office, San        would yield significant returns. The         erty involved in the transaction repre-
Antonio, Texas.                               defendant located such an investment         sented the proceeds of some form of
                                              opportunity through another company          unlawful activity (wire fraud) and (2) the
As essentially alleged in the indict-         whose officials told him and his associ-     transaction was designed, in part, to
ments, the defendant sold–through his         ates that an investment of money             conceal and disguise the nature, loca-
investment company–CDs for millions of        through their company could earn             tion, source, ownership, and control of
dollars and obtained loans and loan pro-      returns of 6.5 percent or more monthly.      the proceeds of that activity. This case
ceeds by pledging CDs sold. Among             In order to obtain money to invest, the      was prosecuted by the U.S. Attorney’s




                                                                 33
Office for the Western District of North    An FDIC Employee Indicted for
Carolina and is part of a larger, ongoing   Using the Name of Another FDIC
case being jointly investigated by the      Employee Is Among the Suspects
OIG, U.S. Secret Service, and FBI, with     Charged in Alleged Identity Theft
much of the work product stemming           Fraud Scheme
from the Dallas region.                     In June 2000, an FDIC employee and
                                            four other suspects were indicted in
Other Cases                                 the District of Maryland on one count
                                            each of conspiracy and Access Device
Information Technology Company              Fraud (18 U.S.C. 1029). The indictment
Agrees to Pay the FDIC $44,841 for          charges that the conspirators obtained
Computer Hacking Incident                   fraudulent identification cards in the
A Maryland-based information technol-       names of victims. The victims included
ogy company agreed to pay $44,841 in        employees of the Department of
damages to the FDIC for a computer          Health and Human Services OIG,
hacking incident. The settlement arose      including federal law enforcement offi-
from an incident where an employee of       cers, and employees of the FDIC. The
the information technology company          ring used the names of the victims to
used a computer to attempt an intrusion     open credit accounts, obtain goods and
into the FDIC Web site ”www.fdic.gov.“      services in retail stores, and order mer-
The intrusion was designed to gain          chandise over the Internet. The pur-
unauthorized access to the Web site         chases included such items as gift cer-
and obtain password files. The case         tificates, jewelry, and electronic equip-
was investigated by the OIG and prose-      ment such as computers, televisions,
cuted by the U.S. Attorney’s Office for     DVD players, and cellular telephones.
the Eastern District of Virginia,
Alexandria Division.

After the OIG learned of the
attempted intrusion, Special Agents
from the OIG obtained information
that permitted them to identify the
source of the attack. The information
revealed that the attack had originated
from a computer owned by the infor-
mation technology company.
Subsequent investigation revealed that
the information technology company
had considered seeking a contract to
provide Internet security services to
the FDIC. An employee of the infor-
mation technology company launched
the hack of the FDIC Web site to
determine whether the FDIC’s com-
puters were vulnerable to a series of
well-known hacker techniques. The                                                       Aerial view of location where recovered bank
information technology company failed                                                   records were buried.
to notify the FDIC of the origin of the
                                                                                        Keystone, West Virginia
hack. As a result, the FDIC sustained
economic damage in investigating the
hack and re-securing the server. The
information technology company coop-
erated fully with the investigation.




                                                              34
Buried documents from the now defunct First
National Bank of Keystone have been cleaned
and inventoried. They now fill more than 370
boxes.

Pictured here is OIG Special Agent Phil
Robertson, who is playing a key role in the
investigation of the Keystone failure.




                                              35
OIG Organization                    Over the past several years the FDIC
                                    has adapted its programs and activities
                                    to reflect the regulatory needs of a
                                    rapidly changing financial industry. To
                                                                                    that go beyond their normal job func-
                                                                                    tions to enhance their understanding
                                                                                    and awareness of the different FDIC
                                                                                    offices/divisions’ roles and responsibili-
                                    ensure the continued relevance and              ties. A rotation policy was recently
                                    value of our work, the OIG has also             issued for moving audit staff among vari-
                                    adapted—by realigning our work and              ous work units to increase their subject
                                    critically examining our skills and work        matter expertise and enhance their audit
                                    processes. To meet the demands of               skills. In addition, numerous OIG staff
                                    change the OIG has been focusing on             broadened their perspectives by attend-
                                    our people; our processes; and our rela-        ing professional conferences that
                                    tionships within the Corporation, other         addressed such issues as fraud detec-
                                    regulatory and auditing institutions, and       tion, planning and budgeting, financial
                                    the financial industry. Through cycles of
                                    learning, change, and self-evaluation, we
                                    have firmly established an organization
                                    that is committed to improving our work
                   Investigations




                                    and adjusting to an ever-changing work-
                                    place. To keep pace with the industry
                                    and ensure that our work remains rele-
                                    vant, we are working to further equip
                                    our staff with the skills needed to ana-
                                    lyze increasingly complex financial data         IG Gianni with Employee Advisory Group.
                                    and utilize new technology. Of special
                                    note is a new program we have initiated
                                    to develop leadership skills in mid-level       During the reporting period, the
                                    managers. Selected individuals will             Inspector General announced
                                    attend training offered by such organiza-       the selection of Steve Beard as
                                    tions as the John F. Kennedy School of          the Assistant Inspector General
                                    Government, the Brookings Institution,          for Congressional Relations and
                                    the Aspen Institute, and the Center for         Evaluations (OCRE). Steve will
                                    Creative Leadership. We are also contin-        serve as the OIG’s executive
                                    uously examining and refining the               liaison and focal point for con-
                                    processes we use to plan, execute, and          gressional matters and those of
                                    monitor our work. In addition, we have          special interest to the Office of
                                    cultivated internal and external working        the Chairman. He will also be
                                    relationships that add efficiency and           responsible for managing the
                                    effectiveness and broaden the impact            evaluation activities of OCRE,
                                    and value of our work.                          which often involve special
                                                                                    requests from the Congress and
                                                                                    senior FDIC managers.
                                    Valuing Our People
                                    The OIG is committed to improving the
                                    quality of our work by giving all staff
                                    members opportunities to develop to
                                    their full potential, fostering trust and
                                    communication, and establishing a work-
                                    place that is conducive to excellence.
                                    We have several staff involved in the
                                    mentoring, new leadership, and aspiring
                                    leader programs, which provide opportu-                             Newly appointed
                                    nities to gain leadership skills in a variety                       Assistant Inspector General
                                                                                                        Steve Beard.
                                    of activities and settings. Some OIG
                                    staff are attending FDIC training in areas




                                                      36
operations, and performance measure-         staffing submissions. Features of this       and planned audits in each division. In
ment. OIG management also held a             plan include new strategic areas linked      addition, we presented the OIG’s per-
workshop on building trust as a key to       more closely to the Corporation’s major      spective on contract oversight issues at
high performance and enhanced com-           program areas–insurance, supervision,        a Contract Oversight Summit hosted by
munication. Further, the Inspector           and receivership management–and              the Office of Internal Control
General has chosen to focus on               which will more specifically address the     Management and at other meetings
“Human Capital” as the primary theme         Chairman’s corporate priorities.             with contracting officials.
for the OIG’s upcoming office-wide
conference in 2001. This theme               Also during this period, the OIG issued      Further, as referenced in our Major
reflects the value that organizations        its Annual Performance Plan and Internal     Issues section, in light of recent bank
must place on their people—their most        Resource Management Performance              failures involving fraud, the OIG and the
important asset.                             Plan, both for 2001. These plans help us     Division of Supervision (DOS) initiated a
                                             link our goals and objectives and mea-       joint project to address the role and pro-
Recently, we established an OIG              sure our performance. The mid-year           ficiency of examiners in detecting fraud
Employee Advisory Group that will com-       2000 Performance Report was issued           during safety and soundness examina-
municate issues of concern to the            for use by our executives and managers       tions. Using a case study, the team
Inspector General. We have also partici-     in measuring our progress toward the         looked at how and when examiners and
pated in the Corporation’s Diversity         goals and objectives of these plans.         others reacted to potential “red flag”
Briefings and Awareness Training and                                                      fraud indicators. This initiative responds
attended diversity celebrations and          To better manage our work, we com-           to DOS’s commitment to addressing
events. During this reporting period, we     pleted the OIG Counsel’s new workflow        fraud in its examination process and its
participated in the FDIC’s Organizational    system, which is designed to provide         training program for examiners. We also
Assessment Survey, which was con-            OIG attorneys with an integrated             participated in the Corporation’s Eighth
ducted by the Gallup Organization. The       approach to scheduling and managing          Annual Fraud and Enforcement
objective of the survey is to establish      their activities. In addition, significant   Conference and provided a session on
baselines for each organization in sev-      progress was made on the Office of           our work related to fraud at First
eral areas, including general satisfaction   Audits’ and Office of Congressional          National Bank of Keystone. In addition,
with the FDIC, level of employee             Relations and Evaluations’ automated         we began a series of scheduled presen-
engagement, and diversity and related        working paper project as we finalized        tations for DOS’s Commissioned
issues. The OIG views the assessment         our software requirements.                   Examiner Seminars during 2000 and
as a natural extension of our own efforts                                                 2001. The presentation provides an
to address diversity and create a learn-                                                  overview of the Office of Investigations;
ing organization within the OIG. We
                                             Strengthening                                a discussion of the October 1999
anticipate that the results of the assess-   Working                                      DOS/Legal/OIG agreement regarding
ment will provide us with additional         Relationships                                open bank investigations; and informa-
insights into creating a workplace that                                                   tive highlights of several Office of
allows people to develop to their maxi-      To further improve and add impact to         Investigations cases, particularly lessons
mum potential.                               our work, we have cultivated both our        learned from the Keystone Bank case.
                                             internal and external relationships.
                                             Through joint efforts, conferences, and      Externally, we collaborated extensively
Improving Our                                meetings, we are more fully coordinat-       with other audit and regulatory groups.
Processes                                    ing our work within the OIG and FDIC         We hosted an annual planning and coor-
                                             and sharing best practices with other        dination session with representatives
During this reporting period we focused      regulatory and audit institutions, aiming    from the other bank regulatory Offices
on efforts to improve our work               to have a broader impact on problems         of Inspector General and the General
processes and the quality and timeliness     facing the financial industry.               Accounting Office (GAO) to discuss
of our work. Specifically, the OIG revised
                                                                                          audit work and industry concerns in the
its approach to audit planning and           Internally, our efforts have focused on      bank supervision area. In light of the
improved or designed several new sys-        coordination and communication within        expanding activities of financial institu-
tems to manage our work. The Office of       the OIG and with FDIC management.            tions into the securities markets, we
Audits developed a new strategic audit       We have coordinated issue-area plan-         also invited representatives from the
approach, which is providing a frame-        ning across OIG office lines. We con-        Securities and Exchange Commission’s
work for future annual audit plans, work-    duct audit status meetings with corpor-      OIG to participate. Some topics of inter-
force plans, staff rotations, and core       ate management to discuss ongoing            est included: agency use of Suspicious




                                                              37
Activity Reports and the Financial              investigative activities; professional      Customer Satisfaction Survey.
Crimes Enforcement Network, financial           advisory services; and external
institution compliance with the Bank            communications with the Chairman,         • Initiated an external peer review of
Secrecy Act, and the adequacy of                the Congress, and other stakeholders.       the Department of Justice OIG Office
Community Reinvestment Act perfor-                                                          of Audit.
mance evaluations. The OIGs may               • Issued the OIG Internal Resource
decide to conduct some of this work             Management Performance Plan for           • Participated in the FDIC’s
jointly to provide a more complete              2001, which contains 16 specific            Organizational Assessment Survey
assessment of bank supervision activity         goals related to the management of          for the OIG as part of the corporate-
among several agencies.                         OIG resources in the areas of staffing,     wide survey.
                                                professional standards and internal
During this reporting period we also met        controls, information technology,         • Formed an OIG Employee Advisory
                                                communications, legal advice, and           Group to communicate issues of
with House Banking Committee staff to
                                                administrative services.                    concern to the Inspector General.
discuss Bank Secrecy Act and money
laundering issues. The Committee was
                                              • Issued the OIG’s mid-year 2000            • Completed OIG Counsel’s new work
working to determine the need for pos-
                                                Performance Report for use as an            flow software program to provide its
sible changes to existing statutes or pro-
                                                interim assessment of progress              users with an integrated approach to
posed legislation (H.R. 2896 and
                                                towards our annual goals.                   scheduling and managing activities.
S.1663, Foreign Money Laundering
Deterrence and Anticorruption Act).
                                              • Continued participation in interagency    • Redesigned the OIG’s Intranet site,
                                                Government Performance and                  OIGNet, to create a more visitor-
We also presented sessions at GAO’s
                                                Results Act (Results Act) Interest          friendly environment.
annual Accounting and Auditing Update
                                                Groups sponsored by the
Conference regarding their multi-year
                                                President’s Council on Integrity and      • Selected a group of employees to
FDIC financial statement audit project
                                                Efficiency (PCIE) and the U.S. Office       participate in leadership training
that began in 1996. The sessions
                                                of Personnel Management to share            sponsored by such organizations as
described how the OIG and GAO formu-
                                                ideas and best practices on Results         the John F. Kennedy School of
lated a strategic partnership to conduct
                                                Act implementation.                         Government, the Aspen Institute, the
the annual financial statement audits for
their common client, the FDIC. This                                                         Brookings Institution, and the Center
                                              • Attended Inspectors General                 for Creative Leadership.
ongoing collective effort, whose suc-
                                                Conference on Implementation of the
cess is derived from a strong coopera-
                                                Results Act regarding the appropriate     • Briefed the corporate Operating
tive working relationship, was presented
                                                role of the Inspectors General in the       Committee on results of OIG 2000
as an example of a best practice. The
                                                implementation of the Results Act.          Client Survey.
OIG looks forward to repeating similar
successes with the Corporation and oth-
                                              • Initiated an internal quality assurance   • Honored OIG staff with service
ers in the federal government.
                                                review of the Office of Management          awards.
                                                and Policy.
OIG Internal                                                                              • Hosted 12 college interns from
Activities                                    • OIG Counsel’s office provided advice        7 universities. Our program is
                                                and counseling, including written           designed so that these individuals, all
• Developed a new strategic audit and           opinions, on a number of issues,            with varied backgrounds, put their
  evaluation approach that provides a           including computer security and             educational skills and talents to work
  basis for future audit plans, workforce       intrusions into government computer         to help us accomplish the OIG’s
  plans, staff rotations, and core staffing     systems; payroll and overtime               mission. Interns were guided by
  submissions.                                  matters; travel regulations; disclosure     mentors and assisted in the Office of
                                                of information; union-related matters;      Audits, Office of Management and
• Issued the OIG’s Annual Performance           contracting issues; employee and            Policy, and Office of Counsel.
  Plan for 2001, which contains 31              FDIC Web page privacy issues; and
  specific goals that directly link to the      various ethics-related matters.           • Hosted and shared audit information
  OIG’s 4 strategic goals and related
                                                                                            and practices with Russian visitor,
  objectives. The goals focus on our          • Office of Management and Policy             Natalia Vasilieva, head of Internal
  core audit, evaluation, and                   issued the final report on its 2000         Audit Services at the Agency for




                                                                38
  Restructuring Credit Organizations, a                     future training and development                         open bank investigations; and
  1-year old banking agency in the                          opportunities for OIG staff.                            informative highlights of several
  Russian Federation that is responsible                                                                            Office of Investigations cases,
  for restructuring selected banks and                   • Completed an initial study of OIG                        particularly lessons learned from the
  liquidating others.                                      workforce specialties and critical skills                Keystone Bank case.
                                                           to identify the knowledge and
• Met with representatives from the                        expertise of the current OIG                           • Presented results of our review of
  World Bank and the Brazilian                             workforce and propose strategies to                      FDIC Employee Internet Use to the
  government to discuss the back-                          acquire needed capabilities                              Corporation’s Operating Committee,
  ground and functions of the Inspector                    going forward.                                           provided related information to the
  General community and the PCIE.                                                                                   Audit Committee, and coordinated
                                                                                                                    with corporate officials taking action
• Responded to a request by Stephen                                                                                 to address OIG concerns.
  Horn, Chairman of the Subcommittee
  on Government Management,                                                                                       • Completed an annual review of the
  Information and Technology of the                                                                                 Corporation’s Internal Control and Risk
  House Committee on Government                                                                                     Management Program. We
  Reform, to members of the PCIE to                                                                                 concluded that the program, including
  submit examples of fraud, waste, or                                                                               the evaluation and reporting process,
  mismanagement and monetary                                                                                        was conducted in accordance with
  benefits that the OIG has identified.                                                                             FDIC policy and was consistent with
                                                                                                                    the provisions of the Federal
• Issued an initial study of OIG training                Arlene Boateng (Dallas OIG) poses with Benjamin Hooks,     Managers’ Financial Integrity Act.
                                                         former Legal Counsel to Martin Luther King, Jr. and
  activities from 1997 through 1999 to                   Hooks’ wife, Frances, during leadership training Ms.
  determine the types of training taken,                 Boateng attended at the Aspen Institute.                 • The OIG and the Office of Internal
  cost, and number of hours. This                                                                                   Control Management conducted a
  information will be used to formulate                  Coordination with                                          joint review of the Equal Employment
                                                                                                                    Opportunity Complaint Process as a
                                                         and Assistance to                                          follow-up to previous reviews the two
                                                         FDIC Management                                            offices performed in 1998.
                                                         • Joined with DOS in initiating a joint
                                                           project to address the role and                        • Presented the OIG’s perspective on
                                                           proficiency of examiners in                              contract oversight issues at a Contract
                                                           detecting fraud during safety and                        Oversight Summit hosted by the
                                                           soundness examinations.                                  Office of Internal Control
                                                                                                                    Management and during other
                                                         • OIG Deputy Counsel and                                   meetings with corporate
                                                           investigative staff attended the                         representatives.
     Visiting Russian auditor Natalia Vasilieva.           Corporation’s Eighth Annual Fraud
                                                           and Enforcement Conference in                          • Met regularly with Office of Internal
                                                           Austin, Texas, and presented a                           Control Management to address audit
                                                           session regarding the OIG’s                              coordination and resolution issues.
                                                           work related to First National Bank
                                                           of Keystone.                                           • Conducted regular briefings with
                                                                                                                    corporate management to
                                                         • OIG investigators began a series of                      communicate status of all ongoing
                                                           scheduled presentations for DOS’s                        audit and evaluation reviews.
                                                           Commissioned Examiner Seminars
     IG Gianni (far left) with World Bank and                                                                     • Coordinated annual audit planning for
     Brazilian government delegation. Also pictured is     during 2000 and 2001. The
                                                           presentation includes an overview of                     2001 with management from all
     Treasury IG Jeffrey Rush (far right).
                                                           the Office of Investigations; a                          divisions by soliciting suggestions and
                                                           discussion of the October 1999                           holding meetings with management
                                                           DOS/Legal/OIG agreement regarding                        from major program areas.




                                                                                39
Table 1:
           Significant OIG Achievements
           April 2000 – September 2000
                                                                               *These products relate to
           Audit Reports Issued                                         31     OIG work that did not result
           Other Audit-Related Products *                               14     in formally issued audit or
                                                                               evaluation reports.
           Evaluation Reports Issued                                     2
           Other Evaluation-Related Products *                           6
           Questioned Costs and Funds Put to Better Use
           from Audit and Evaluation Reports                   $11 million
           Investigations Opened                                         22
           Investigations Closed                                         35
           OIG Subpoenas Issued                                          18
           Convictions                                                   11
           Fines, Restitution, and Monetary Recoveries        $10.7 million
           Hotline Allegations Referred                                  15
           Allegations Substantiated                                      6
           Allegations Closed                                            23
           Proposed or Existing Regulations and
           Legislation Reviewed                                         11
           Proposed FDIC Policies Reviewed                              36
           Responses to Requests and Appeals Under the
           Freedom of Information Act and Privacy Act                   18
                                      Table 2:




                                                 Nonmonetary Recommendations
                                                 October 1997 – March 1998                                     52
                                                 April 1998 – September 1998                                   77
                                                 October 1998 – March 1999                                    133
                                                 April 1999 – September 1999                                   66
                                                 October 1999 – March 2000                                     68
                                                 April 2000 – September 2000                                   74




           OIG Litigation

           During the reporting period, Counsel’s Office actively litigated or monitored
           the progress of 21 matters, including 2 matters that closed during the
           period. The active matters included 4 personnel actions and 9 actions
           involving such subjects as the Right to Financial Privacy Act, the qui tam*
           (whistleblower) provisions of the False Claims Act, and the Bivens doctrine
           (i.e., alleged tortious conduct by government employees). The other
           matters are awaiting action by the FDIC or the courts (or other
           adjudicatory bodies).

           *Qui tam provisions allow for a civil action brought by a private party under the
           False Claims Act that the government may elect to join as a complainant. If the gov-
           ernment proves the case, the party initiating the suit may be entitled to share in any
           resulting monetary recoveries.




                                                        40
Table 3:
           OIG Review of Proposed or Existing
           Legislation and Regulations
           (April 1, 2000 – September 30, 2000)
           OIG Counsel reviewed and commented upon the following
           legislation and regulations:
           Legislation
           Chief among the legislation reviewed during the reporting period was S.870,
           the Inspector General Act Amendments of 2000. This bill would, among other
           things, require annual–rather than the current semiannual–reporting to the
           Congress, change the matters to be reported, and require external reviews of
           Inspector General contracting and hiring functions.
           In addition to S.870, Counsel’s office reviewed numerous other bills and pre-
           pared comments, sometimes in conjunction with other components of the
           OIG, on the following items:
           H.R. 4670 and H.R. 5024 – Creating a Federal Chief Information Officer
           S. 3030 – Recovery Audits
           S. 1993 – Government Information Security Act of 2000
           Draft Bill – Reports Consolidation Act of 2000
           Comments on Electronic Government Issues
           Regulations
           The OIG reviewed various regulatory proposals, both internal to the FDIC and
           those with external application. We commented on the draft versions of the
           regulations listed below that were issued either by the FDIC or by the FDIC
           jointly with other agencies. Two of the regulations implement the Gramm-
           Leach-Bliley Act of 1999, the major banking bill that allows for the restructur-
           ing of the financial services industries and addresses various privacy issues,
           among other things.
           Also the FDIC issued draft regulations to implement the Program Fraud Civil
           Remedies Act (PFCRA). Counsel’s office has provided the FDIC with comments
           on versions of the PFCRA regulations during this and prior reporting periods.
           (See box on next page.)
           Part 343 – Consumer Protections for Deposit Institutions’ Sales of Insurance
           Final Consumer Privacy Rule
           Fair Credit Reporting Act Regulations




                                                        41
Under FDIC’s Proposed Regulations, OIG Would Play
Key Role in Program Fraud Civil Remedies Act
The Program Fraud Civil Remedies Act (PFCRA), codified at 31 U.S.C. § 3801
et seq., is often referred to as a “mini False Claims Act.” The Act allows
federal agencies to bring civil actions in administrative courts to seek
recovery damages and penalties for false claims and statements submitted
to the government that resulted in monetary losses of $150,000 or less.

Under the proposed FDIC regulations, the Inspector General is the
“Investigating Official” responsible for investigating allegations of false
claims and statements made to the FDIC. If the Investigating Official
believes an action under PFCRA is warranted, the matter will be referred
to the FDIC’s “Reviewing Official,” namely, the General Counsel. The
Reviewing Official determines whether there is adequate evidence to
pursue a PFCRA action. Any PFCRA action must receive prior approval
from the Department of Justice. The action would then be brought before
an administrative law judge. The defendant may appeal an adverse ruling
to the FDIC’s Board of Directors and, ultimately, to federal court.



                                       Inspector General Testifies Before the
                                       Senate Committee on Governmental Affairs
                                       On July 19, 2000, Senator Fred Thompson, Chairman of the Senate
                                       Committee on Governmental Affairs, held a hearing to discuss (1) amend-
                                       ments to the Inspector General Act proposed by Senator Susan Collins and
                                       (2) statutory law enforcement authority. The FDIC Inspector General, as
                                       Vice Chair of the President’s Council on Integrity and Efficiency, represented
                                       the Inspector General community. His statement provided the community’s
                                       view on the proposed amendments, a detailed explanation of the need for
                                       statutory law enforcement for selected Inspectors General, and a synopsis
                                       of other legislative changes. Inspectors General from the Department of
                                       Transportation and Office of Personnel Management accompanied the FDIC
                                       Inspector General. OMB’s Executive Associate Director and Controller and a
                                       senior official from the Department of Justice also testified.
Figure 1:




                                   Products Issued and Investigations Closed
                                                                                                   200
                 Legend                                                                            100
             •   Apr 98–Sep 98                                                                     160
             •   Oct 98–Mar 99                                                                      80
             •   Apr 99–Sep 99*                                                                    120
             •   Oct 99–Mar 00*                                                                     60
             •   Apr 00–Sep 00*                                                                     80
                                                                                                    40
            *Includes products                                                                      40
            related to audit and
            evaluation work that did                                                                20
            not result in formally                                                                   0
            issued reports.
                                              Audits and Evaluations        Investigations




                                                                       42
Figure 2:
                                  Questioned Costs/Funds Put to Better Use (in millions)
                                                                                          200
                Legend                                                                     20
            •   Apr 98–Sep 98                                                             160
            •   Oct 98–Mar 99                                                              15
            •   Apr 99–Sep 99                                                             120
            •   Oct 99–Mar 00                                                              10
            •   Apr 00–Sep 00                                                              80
                                                                                            5
                                                                                           40
                                                                                            0
                                                                                            0
                                                 Audits and Evaluations
                      Figure 3:




                                                 Fines, Restitution, and Monetary Recoveries Resulting
                                                 from OIG Investigations (in millions)
                                                                                                    200
                                     Legend                                                          20
                                   • Apr 98–Sep 98                                                  160
                                   • Oct 98–Mar 99                                                   15
                                   • Apr 99–Sep 99                                                  120
                                   • Oct 99–Mar 00                                                   10
                                   • Apr 00–Sep 00                                                   80
                                                                                                      5
                                                                                                     40
                                                                                                      0
                                                                                                      0




                                                                          43
and Requirements                    Index of Reporting Requirements - Inspector
                                    General Act of 1978, as amended
Reporting Terms
                                    Reporting Requirement                                             Page
                                    Section 4(a)(2):    Review of legislation and regulations            41
                                    Section 5(a)(1):    Significant problems, abuses,
                                                        and deficiencies                               10-27
                                    Section 5(a)(2):    Recommendations with respect to
                                                        significant problems, abuses, and
                                                        deficiencies                                   10-27
                                    Section 5(a)(3):    Recommendations described in previous
                                                        semiannual reports on which corrective
                                                        action has not been completed                  46-49
                   Investigations




                                    Section 5(a)(4):    Matters referred to prosecutive authorities      28
                                    Section 5(a)(5)     Summary of instances where requested
                                    and 6(b)(2)         information was refused                          55
                                    Section 5(a)(6):    Listing of audit reports                       50-52
                                    Section 5(a)(7):    Summary of particularly significant reports 10-27
                                    Section 5(a)(8):    Statistical table showing the total number
                                                        of audit reports and the total dollar value
                                                        of questioned costs                              53
                                    Section 5(a)(9):    Statistical table showing the total number
                                                        of audit reports and the total dollar value
                                                        of recommendations that funds be put
                                                        to better use                                    54
                                    Section 5(a)(10): Audit recommendations more than
                                                      6 months old for which no management
                                                      decision has been made                             55
                                    Section 5(a)(11): Significant revised management
                                                      decisions during the current
                                                      reporting period                                   55
                                    Section 5(a)(12): Significant management decisions with
                                                      which the OIG disagreed                            55




                                                       44
Reader’s Guide to                            General Act, is a questioned cost that
                                             management, in a management deci-
Inspector General                            sion, has sustained or agreed should
Act Reporting Terms                          not be charged to the government.

What Happens When Auditors                   Once management has disallowed a
Identify Monetary Benefits?                  cost and, in effect, sustained the audi-
Our experience has found that the            tor’s questioned costs, the last step in
reporting terminology outlined in the        the process takes place which culmi-
Inspector General Act of 1978, as            nates in the ”final action.“ As defined
amended, often confuses people. To           in the Inspector General Act, final action
lessen such confusion and place these        is the completion of all actions that
terms in proper context, we present          management has determined, via the
the following discussion:                    management decision process, are
                                             necessary to resolve the findings and
The Inspector General Act defines the        recommendations included in an audit
terminology and establishes the reporting    report. In the case of disallowed costs,
requirements for the identification and      management will typically evaluate
disposition of questioned costs in audit     factors beyond the conditions in the
reports. To understand how this process      audit report, such as qualitative judge-
works, it is helpful to know the key terms   ments of value received or the cost to
and how they relate to each other.           litigate, and decide whether it is in the
                                             Corporation’s best interest to pursue
The first step in the process is when        recovery of the disallowed costs. The
the audit report identifying questioned      Corporation is responsible for reporting
      ▼
costs is issued to FDIC management.          the disposition of the disallowed costs,
Auditors question costs because of an        the amounts recovered, and amounts
alleged violation of a provision of a law,   not recovered.
regulation, contract, grant, cooperative
agreement, or other agreement or doc-        Except for a few key differences, the
ument governing the expenditure of           process for reports with recommenda-
funds. In addition, a questioned cost        tions that funds be put to better use
may be a finding in which, at the time       is generally the same as the process
of the audit, a cost is not supported by     for reports with questioned costs. The
adequate documentation; or, a finding        audit report recommends an action that
that the expenditure of funds for the        will result in funds to be used more
intended purpose is unnecessary or           efficiently rather than identifying
unreasonable.                                amounts that may need to be eventu-
                                             ally recovered. Consequently, the
The next step in the process is for          management decisions and final
FDIC management to make a decision           actions address the implementation of
about the questioned costs. The              the recommended actions and not the
Inspector General Act describes a            disallowance or recovery of costs.
”management decision“ as the final
decision issued by management after
evaluation of the finding(s) and recom-
mendation(s) included in an audit
report, including actions deemed to be
necessary. In the case of questioned
costs, this management decision must
specifically address the questioned
costs by either disallowing or not disal-
lowing these costs. A ”disallowed
cost“, according to the Inspector

                                             ▼
                                               It is important to note that the OIG
                                             does not always expect 100 percent
                                             recovery of all costs questioned.


                                                               45
                                                                           Table l.1
                                                                                       Significant Recommendations from
                                                                                       Previous Semiannual Reports on
                                                                                       Which Corrective Actions Have Not
                                                                                       Been Completed
                                                                                       This table shows the corrective actions management has agreed to implement but
                                                                                       has not completed, along with associated monetary amounts. In some cases,
                                                                                       these corrective actions are different from the initial recommendations made in
                                                                                       the audit reports. However, the OIG has agreed that the planned actions meet the
                                                                                       intent of the initial recommendations. The information in this table is based on
                                                                                       information supplied by the FDIC’s Office of Internal Control Management (OICM).
                                                                                       These 40 recommendations from 14 reports involve monetary amounts of over
                                                                                       $15.8 million. OICM has categorized the status of these recommendations
              Inspector General Act of 1978, as amended




                                                                                       as follows:
                                                          Investigations




                                                                                       Management Action in Process: (19 recommendations from
                                                                                       10 reports)
                                                                                       Management is in the process of implementing the corrective action plan, which
              Statistical Information Required by the
Appendix l:




                                                                                       may include modifications to policies, procedures, systems or controls; issues
                                                                                       involving monetary collection; and settlement negotiations in process.

                                                                                       Litigation: (21 recommendations from 4 reports)
                                                                                       Each case has been filed and is considered “in litigation.” The Legal Division will
                                                                                       be the final determinant for all items so categorized.




                                                                                                        46
Table I.1:

Report Number,                           Significant         Brief Summary of Planned
Title,                                   Recommendation      Corrective Actions and
and Date                                 Number              Associated Monetary Amounts

Management Action In Process

98-083                                   3                   Disallow $140,161 in supplemental special servicer fees billed
Securitization Credit                                        early or before any work was performed.
Enhancement Reserve Fund
1992-CHF
October 2, 1998

98-090                                   2, 4                Quantify the amount of overstated realized losses, unrecorded
Credit Enhancement Reserve Fund                              proceeds, corporate advances, and refunds resulting from
for Securitization Transaction 1993-03                       accounting errors and request reimbursement from
November 24, 1998                                            NationsBanc, as successor to Boatmen.

                                         10                  Perform or contract for on-site reviews of the servicer’s support-
                                                             ing documentation of the realized losses for the single-family
                                                             residential loan securitization program.

EVAL 99-004                              7                   Reassess FDIC headquarters color copying requirements and
FDIC Headquarters Copier                                     determine whether the FDIC could more economically meet
Administration Program                                       those needs by consolidating copiers or installing more appro-
June 15, 1999                                                priate color copy machines.

99-027                                   1                   Disallow $331,672 for losses that were incurred and negotiate
Limited Scope Audit of Credit                                a settlement agreement to obtain restitution for the losses
Enhancement Reserve Funds for                                related to Chapter 11 bankruptcy proceedings.
Securitization Transactions
1991-16 and 1992-05
July 6, 1999

99-028                                   3                   Ensure that the system being developed to replace the
Personnel Action Processing                                  Personnel Action Request System incorporates the capability to
Controls and Security                                        preserve a permanent image or record of the original request
July 29, 1999                                                for personnel action and provides an audit trail to changes and
                                                             additions made to the request.✦

EVAL 99-007                              1                   Take actions to more closely align the types and placement of
FDIC Regional Copier Program                                 equipment in the Dallas Regional Office’s and San Francisco
September 30, 1999                                           Regional Office’s copier programs with each region’s
                                                             copying demands.

                                         2                   Analyze the available convenience copier contract vehicles and
                                                             scenarios and select the ones that provide the best value
                                                             for the Dallas Regional Office and San Francisco Regional
                                                             Office.




✦
 Implementation scheduled along with the completion of the Corporate Human Resources Information System.




                                                           47
Report Number,                               Significant       Brief Summary of Planned
Title,                                       Recommendation    Corrective Actions and
and Date                                     Number            Associated Monetary Amounts

Management Action In Process (continued)

99-047                                       1-3               Ensure data integrity of systems by strengthening controls,
Data Integrity Controls for Selected                           developing interim processes, and clearly defining the roles and
DRR Automated Systems                                          responsibilities of the data stewards.
December 21, 1999
                                             4                 Ensure independent data integrity testing is performed by
                                                               DRR’s Office of Internal Review to validate the results of self-
                                                               certification programs employed.

                                             5                 Ensure long-term error correction strategies are implemented
                                                               when error rates exceed established tolerance levels, including
                                                               identifying systemic causes of errors.

EVAL-00-001                                  6                 Create an energy management plan to promote energy manage-
An Assessment of the Corporation’s                             ment and conservation and to measure expenditures and
Efforts to Enhance Energy Efficiency                           achievements.
and Reduce Consumption of Natural
Resources at Its Headquarters
Facilities
February 2, 2000

00-002                                       3                 DOS regional and field personnel communicate with their
Management Review of DOS                                       DIRM counterparts during the planning and development of
Tracking Systems                                               application systems to ensure that developed products are
February 23, 2000                                              compatible with the FDIC’s system architecture.

00-013                                       5                 Validate the goals and objectives contained in the FDIC’s IT
FDIC’s Strategic Planning for                                  Strategic Plan and begin measuring performance against these
Information Technology Resources                               goals and objectives.
March 31, 2000
                                             7                 Work with the FDIC’s divisions and program offices to ensure
                                                               that full life cycle costs associated with the FDIC’s IT invest-
                                                               ments are tracked, reported, and compared to initial estimates.

                                             10                Work with the Technical Committee to implement procedures
                                                               that require the post-implementation review (PIR) process to
                                                               include more comprehensive information in the final PIR report
                                                               regarding a comparison of original and final cost and schedule
                                                               information.
                                 Table l.1




                                                          48
Report Number,                              Significant       Brief Summary of Planned
Title,                                      Recommendation    Corrective Actions and
and Date                                    Number            Associated Monetary Amounts

Litigation

95-032                                      5                 Recover $5,259,285 from the association for noncompliance
Local America Bank, F.S.B.,                                   with the tax benefits provisions of the assistance agreement.
Assistance Agreement
March 24, 1995

96-014                                      1, 4-16           Recover $4,526,389 of assistance paid to Superior Bank.
Superior Bank, F.S.B., Assistance
Agreement, Case Number C-389c
February 16, 1996

97-080                                      8                 Disallow the improperly paid late fees and special assessments
FDIC Property Tax Reassessments                               totaling $4,385,089 and initiate action to prevent future payments
and Refunds, Western Service Center                           of such amounts.
July 17, 1997

98-026                                      2, 3, 4, 6        Recover $1,220,470 of assistance paid to Superior Bank.
Assistance Agreement Audit of
Superior Bank, Case Number C-389c           11                Compute the effect of understated Special Reserve Account
March 9, 1998                                                 for Payments in Lieu of Taxes and remit any amounts due to
                                                              the FDIC.
                                Table l.1




                                                         49
Table I.2: Audit Reports Issued by Subject Area


Audit Report                                                            Questioned Costs
Number                                                                                            Funds Put to
and Date              Title                                           Total         Unsupported    Better Use

Supervision and Consumer Affairs

00-016                Follow-up Audit of the Implementation of
May 5, 2000           the Risk-Focused Examination Process

00-017                DOS Controls over the Scheduling, Hours,
May 22, 2000          And Reporting Package (SHARP) System

00-018                DCA Controls over the SHARP System
May 22, 2000

00-022                Material Loss Review - The Failure of Pacific
June 7, 2000          Thrift and Loan Company, Woodland Hills, CA

00-026                DCA’s Community Reinvestment Act
July 7, 2000          Examination Process

Award, Administration, and Oversight of Contracts and Agreements

00-021                Payments to CIBER, Inc.                         $587,621
June 2, 2000

00-023                Pacific Place Renovation Project                $182,231      $26,091
June 26, 2000

00-036                Payments to COMSO, Inc.                         $260,259
August 29, 2000

00-037                Pacific Place Lease Agreement                   $17,602       $17,602
August 25, 2000

EVAL-00-005           MCI Voice and Video Contract - Intrastate       $882,640                         $818,345
Sept. 29, 2000        Surcharge and Other Compliance Issues

Asset Servicing and Liquidation

00-020                Securitization RTC 1992-C4
June 7, 2000

00-025                Northeast Service Center’s Collateral Vault
June 30, 2000


00-024                Claims Made to the Credit Enhancement           $230,678      $206,168
July 6, 2000          Reserve Fund for Securitization Transaction
                      1991-03

00-027                FDIC’s Identification and Classification of
July 7, 2000          Environmentally Impaired Assets




                                                            50
Audit Report                                                                  Questioned Costs
Number                                                                                                  Funds Put to
and Date                      Title                                         Total         Unsupported    Better Use

Asset Servicing and Liquidation (continued)

00-028                        Claims Made to the Credit Enhancement         $1,350,837     $1,226,316
July 21, 2000                 Reserve Fund for Securitization Transaction
                              1991-09

00-029                        Claims Made to the Credit Enhancement         $401,684       $310,111
July 21, 2000                 Reserve Fund for Securitization Transaction
                              1991-15

00-031                        Claims Made to the Credit Enhancement         $665,025      $606,114
August 3, 2000                Reserve Fund for Securitization Transaction
                              1991-07

00-032                        Claims Made to the Credit Enhancement         $559,462       $494,173
August 3, 2000                Reserve Fund for Securitization Transaction
                              1992-01

00-033                        Residual Interests from Asset                 $84,124
August 1, 2000                Disposition Decisions by Settlement
                              and Workout Asset Teams

00-034                        Claims Made to the Credit Enhancement         $1,443,836    $1,228,660
August 21, 2000               Reserve Fund for Securitization Transaction
                              1991-01

00-035                        Claims Made to the Credit Enhancement         $878,574      $699,061
August 21, 2000               Reserve Fund for Securitization Transaction
                              1991-12

00-041                        Claims Made to the Credit Enhancement         $837,696       $709,023
Sept. 8, 2000                 Reserve Fund for Securitization Transaction
                              1992-04

00-039                        Dallas Field Operations Branch’s Subsidiary
Sept. 12, 2000                Inventory

00-042                        FDIC’s Payments for Claims Expenses           $212,586       $212,586
Sept. 12, 2000                Related to Repurchased Commercial Loans
                              with Environmental Issues
                  Table l.2




00-044                        Claims Made to the Credit Enhancement         $765,827       $623,869
Sept. 20, 2000                Reserve Fund for Securitization Transaction
                              1992-03




                                                                    51
Audit Report                                                            Questioned Costs
Number                                                                                            Funds Put to
and Date                Title                                         Total         Unsupported    Better Use

Financial and Management Information Systems

00-030                  Development of the Electronic Travel
July 28, 2000           Voucher Payment System

00-038                  Information Technology Configuration
Sept. 1, 2000           Management Program

00-043                  DIRM’s Actions to Ensure Quality Products
Sept. 25, 2000

Corporate Activities and Administration

00-015                  Corporation’s Procurement and Travel
May 24, 2000            Credit Card Programs

00-019                  Implementation of Corrective Actions
May 25, 2000

00-040                  FDIC Health Benefits Program                  $822,307
Sept. 6, 2000           Administered by Aetna U.S. Healthcare

00-045                  Semiannual Report of FDIC Board Members’
Sept. 30, 2000          Travel Voucher Reviews - March 2000 through
                        August 2000

Totals for the Period                                                 $10,182,989   $6,359,774      $818,345
         Table l.2




                                                               52
Table I.3: Audit Reports Issued with Questioned Costs
                                                                                                 Questioned Costs
                                                                           Number
                                                                                             Total              Unsupported



A.      For which no management decision has been
        made by the commencement of the reporting period.                  0                 0                  0

B.      Which were issued during the reporting period.                     17▼               $10,182,989        $6,359,774

Subtotals of A and B                                                       17                $10,182,989        $6,359,774

C.      For which a management decision was made
        during the reporting period.                                       17                $10,182,989        $6,359,774

        (i)      dollar value of disallowed costs.                         17                $10,182,989        $6,359,774

        (ii) dollar value of costs not disallowed.                          0                0                  0

D.      For which no management decision has been
        made by the end of the reporting period.                           0                 0                  0

        Reports for which no management decision was made
        within 6 months of issuance.                                       0                 0                  0



▼
     An evaluation report is included in this line. The report questioned $882,640, and all of the monetary benefits
     were disallowed.
              Table l.3




                                                                 53
Table I.4: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                            Number   Dollar Value



A.   For which no management decision has been made by the
     commencement of the reporting period.                                                  0        0

B.   Which were issued during the reporting period.                                         1        $818,345▼

Subtotals of A and B                                                                        1        $818,345

C.   For which a management decision was made during
     the reporting period.                                                                  1        $818,345

     (i)   dollar value of recommendations that were agreed to
           by management                                                                    1        $818,345

           - based on proposed management action.                                           1        $818,345

           - based on proposed legislative action.                                          0        0

     (ii) dollar value of recommendations that were not
          agreed to by management.                                                          0        0

D.   For which no management decision has been made by the end of the
     reporting period.                                                                      0        0

     Reports for which no management decision was made
     within 6 months of issuance.                                                           0        0


▼
An evaluation report is included in this table to reflect funds put to better use amount.
             Table l.4




                                                              54
                            Table I.5
                            Status of OIG Recommendations Without
                            Management Decisions

                            During this reporting period, there were no recommendations without manage-
                            ment decisions.




                            Table I.6
                            Significant Revised Management Decisions

                            During this reporting period, there were no significant revised management
                            decisions.




                            Table I.7
                            Significant Management Decisions with Which the
                            OIG Disagreed

                            During this reporting period, there were no significant management decisions
                            with which the OIG disagreed.
Tables l.5, l.6, l.7, l.8




                            Table I.8
                            Instances Where Information Was Refused

                            During this reporting period, there were no instances where information was
                            refused.




                                                                  55
                                                             Products Issued by the Office of Congressional Relations and
                                                             Evaluations

                                                             Product Number
                                                             and Date                Title

                                                             Evaluation Reports

                                                             EVAL-00-004             FDIC’s Privacy and Security Notices - Requirements and Policy Statements
                                                             May 19, 2000            on the Internet and Intranet


                                                             EVAL-00-005             MCI Voice and Video Contract - Intrastate Surcharge and Other Compliance
                                                             September 29, 2000      Issues
               Congressional Relations and Evaluations




                                                             Evaluation Memoranda
                                            Investigations
Appendix ll:



                                                             EM-00-001               FDIC’s Equal Employment Opportunity Complaint Process
                                                             May 19, 2000


                                                             EM-00-002               Request for Expenditure Authority–OneNet Wide Area Network
                                                             July 26, 2000
               Products Issued by the Office of




                                                             Congressional Letters

                                                             CL-00-002               Internal Controls over FDIC’s Enforcement Action Process
                                                             April 5, 2000


                                                             CL-00-003               OIG Analysis of FDIC’s 1999 Program Performance Report
                                                             July 6, 2000


                                                             CL-00-004               Response to May 30, 2000, Questions About FDIC’s Actions
                                                             July 18, 2000           Regarding United Savings Association of Texas


                                                             CL-00-005               Review of Allegations Regarding FDIC’s Enforcement Action and
                                                             September 29, 2000      Glen Garrett




                                                                                                  56
Under Proposed S.870
Information Required
                       In the interest of amending the            While much of the information that
                       Inspector General Act of 1978 to           would be required in the annual report
                       increase the efficiency and accountabil-   is currently required semiannually,
                       ity of Offices of Inspector General        Senator Collins’s proposed S.870 calls
                       within federal departments and for         for some additional reporting elements.
                       other purposes, Senator Collins offered
                       a substitute version of S.870 that was     In anticipation of the possible passage
                       recently placed on the Senate              of S.870, we are including such addi-
                       Legislative Calendar under General         tional information in our current semian-
                       Orders. This version proposes that         nual report and hope that it is helpful to
                       rather than continuing the current prac-   those with congressional interest in OIG
                       tice of reporting semiannually,            operations. This additional information
                       Inspectors General instead prepare         falls under three broad categories:
                       annual reports not later than October      (1) Investigative Results; (2) Organiza-
                       31 of each year that summarize the         tional, Management, and Budgetary
                       activities and accomplishments of the      Information; and (3) OIG-Awarded Non-
                       office during the immediately preceding    competitive Contract Data.
                       12-month period.

                       Investigative Results

                       5(B)ii    Cases Presented but Declined for Prosecution

                                 Criminal declinations during period                                    11
                                  (presented and declined in period)                                     5

                                 Civil declinations during period                                         3
                                 (presented and declined in period)                                       2

                       5(B)iii   Cases Accepted for Prosecution

                                 Criminal prosecution                                                   13

                                 Civil prosecution                                                        4

                       5(B)vi    Defendants Acquitted or Charges Dismissed after
                                 Indictment                                                               0

                       5(B)vii   Defendants Sentenced to Terms of Imprisonment                            5

                       5(B)viii Defendants Sentenced to Terms of Probation                                7




                                         57
 Organizational, Management, and Budgetary Information
 6(A)   Organization chart showing the major components of the Office:




      Counsel to the
    Inspector General                       INSPECTOR GENERAL




                         Office of Audits                          Office of Investigations

                              Deputy                                      Assistant
                         Inspector General                            Inspector General




   Office of Quality                        Office of Management                          Office of Congressional
Assurance and Oversight                           and Policy                             Relations and Evaluations

        Assistant                                    Assistant                                     Assistant
    Inspector General                            Inspector General                             Inspector General




 6(B)   A statistical table showing the number of authorized full-time equivalent positions segregated by
        component and by headquarters and field offices.


                         Number of OIG Permanent Staff by
                     Headquarters and Field Locations for FY 2000*

                IG      Counsel          Audit      Investigations OCRE        OMP       OQAO Total

                                   HQ      Field     HQ      Field

                3         7         81      44       21       22        12      20        10      220



                *Unless otherwise indicated, staff are located in the OIG’s Washington
                 headquarters office.

                 OCRE (Office of Congressional Relations and Evaluations)
                 OMP (Office of Management and Policy)
                 OQAO (Office of Quality Assurance and Oversight)



                                                       58
6(C)   The amount of funding received in prior and current fiscal years.




                                           OIG Funding


                                       FY 1999         FY 2000

                                    $34,666,000     $33,666,000




OIG-Awarded Non-Competitive Contract Data

7(A)   The number of contracts, and associated dollar value, awarded on a non-competitive basis by the
       Office of Inspector General.
       The OIG awarded no such contracts during the reporting period.

7(B)   With respect to any individual contract valued over $100,000, awarded on a
       non-competitive basis
       i. the name of the contractor,
       ii. statement of work,
       iii. the time period of the contract, and
       iv. the dollar amount of the contract.
       N/A.




                                                  59
OIG Staff Honored at                           ness with which the FDIC carries out                      the FDIC identify and recover assets
                                               this responsibility. The team’s work                      held by other states. Further, auditors
PCIE/ECIE Award                                resulted in a significant policy memoran-                 found that the state agencies were
Ceremony                                       dum to the FDIC Chairman, prompted                        holding unclaimed assets belonging to
                                               hearings by the House Committee on                        more than 40 other federal agencies.
The OIG is proud of the accomplish-            Banking and Financial Services, and led                   Inspector General Gianni issued a letter
ments of staff who received awards at          to legislation being introduced by the                    to the 24 Inspectors General represent-
the Annual Awards Ceremony of the              Committee Chairman. In recognition of                     ing the 40 federal departments and
President’s Council on Integrity and           these efforts, the team was bestowed a                    agencies about this potential audit area.
Efficiency (PCIE) and the Executive            PCIE Award for Excellence.
Council on Integrity and Efficiency                                                                      Also acknowledged with a Joint Award
(ECIE) held at the Ronald Reagan                                                                         for Excellence from the PCIE/ECIE
Auditorium on September 29, 2000.                                                                        were Leslee Bollea and Mag Velasquez
                                                                               IG Gianni presents
More than 150 nominations were                                                 award to Senior           for their participation on the IGNet
received this year.                                                            Audit Specialist Tom      Working Team. This team established
                                                                               Mroczko, who
                                                                               accepts on behalf of      the “business side” of the Inspector
The Inspector General nominated                                                the rest of the team.     General community’s Web site to
Steven A. Switzer, Deputy Inspector                                                                      improve communications among the
General for Audits, to receive a PCIE                                                                    various Offices of Inspector General
Award for Career Achievement. As               An audit team from our Atlanta Office                     government-wide.
noted at the awards ceremony, Steve            also won an Award for Excellence. This
has played a key role in government and        team, comprised of Carl Mays, Bud
in the Inspector General community in          Santee, and Waylon Catrett proposed,
particular over the past 34 years. Steve’s     planned, and conducted an audit based
achievements reflect a commitment to           on their idea that many financial institu-
excellence and a true understanding of         tions that failed during the banking and
the role of the Inspector General com-         savings and loan crisis had assets that
munity in ensuring the highest degree          were not identified when the institutions
of integrity and success in government
programs and operations.
                                                                                                         Award winners Magdaleno Velasquez and Leslee Bollea
                                                                                                         are congratulated by IG Gianni.

                                                                                                         Finally, the following projects received
                                                                                                         Honorable Mention distinctions:
                                                                                                         (1) Scott Miller, Marshall Gray, Jack
                         IG Gianni presents
                                                                                                         Talbert, and Sharon Tushin for exem-
                         Deputy IG Switzer                                                               plary work and innovative methods in
                         with Career           IG Gianni congratulates the Atlanta office team (Waylon   reviewing, developing, and presenting
                         Achievement Award.    Catrett, Carl Mays, Bud Santee).                          issues relating to Employee Use of the
                                                                                                         Internet at the FDIC and (2) Special
                                               were closed. The FDIC, as the receiver                    Agent Ken Meyd for outstanding inves-
The team of Vernon Davis, Mike                 for the failed institutions, has a fidu-                  tigative work leading to the recovery of
Lombardi, Tom Mroczko, Hank Smith,             ciary responsibility to identify and                      $9.7 million for the FDIC.
Terry Radigan, John Colantoni, and Fred        recover all assets of those institutions.
Gibson conducted an audit of the FDIC’s        By identifying and accessing informa-
efforts to assess insurance risk at insti-     tion available on the Internet, the audi-
tutions supervised by three other federal      tors reviewed 26 state unclaimed prop-                    Congratulations to all!
banking agencies. This was a politically       erty databases and found that 25 of
sensitive audit of an area that is critical    those states were holding assets
to the FDIC’s role as insurer for all insti-   belonging to the FDIC or its receiver-
tutions. The audit identified a need to        ships. The auditors recommended that
strengthen the cooperation between the         the FDIC recover $3.3 million from
FDIC and the other federal banking reg-        unclaimed property agencies in two
ulators, and to improve the effective-         states, Florida and California, and that




                                                                       60
Abbreviations and Acronyms

ACSB    Acquisition and Corporate Services Branch
BOA     Bank of America
CD      Certificate of Deposit
CM      Configuration Management
CFO     Chief Financial Officer
CRA     Community Reinvestment Act
DCA     Division of Compliance and Consumer Affairs
DIRM    Division of Information Resources Management
DOS     Division of Supervision
DRR     Division of Resolutions and Receiverships
ECIE    Executive Council on Integrity and Efficiency
EEO     Equal Employment Opportunity
ETVPS   Electronic Travel Voucher Payment System
FBI     Federal Bureau of Investigation
FDIC    Federal Deposit Insurance Corporation
FOB     Field Operations Branch
GAO     U.S. General Accounting Office
IG      Inspector General
IORR    Interest-Only Residual Receivables
IRS     Internal Revenue Service
IT      Information Technology
MCI     MCI WorldCom, Inc.
NESC    Northeast Service Center
ODEO    Office of Diversity and Economic Opportunity
OI      Office of Investigations
OICM    Office of Internal Control Management
OIG     Office of Inspector General
OCRE    Office of Congressional Relations and Evaluations
OMB     Office of Management and Budget
PCIE    President’s Council on Integrity and Efficiency
PFCRA   Program Fraud Civil Remedies Act
PIR     Post-Implementation Review
PTL     Pacific Thrift and Loan Company
RTC     Resolution Trust Corporation
SDLC    System Development Life Cycle




                                                            61
Offices of Inspector General Contribute to
Good Governance
THE INSPECTOR GENERAL COMMUNITY is a very positive and powerful
force in the federal government, and the FDIC OIG is proud to be a part of it.
The community’s Fiscal Year 1999 Progress Report to the President issued
during the reporting period attests to the excellent results of the member
Offices of Inspector General of the President’s Council on Integrity and
Efficiency (PCIE) and the Executive Council on Integrity and Efficiency (ECIE)
in carrying out the mission of the Inspector General established by the
Congress in October 1978.

Through hundreds of independent
and objective audits, investigations,
and evaluations of federal programs
and activities, OIGs effectively pro-
moted financial management account-
ability, helped ensure integrity, mini-
mized risks of fraud and abuse, and
achieved results: potential savings of
more than $8.2 billion, actions to
recover over $4 billion, over 13,000
successful prosecutions (including
results from the Postal Inspection
Service overseen by the U.S. Postal
Service Office of Inspector General),
suspensions or debarments of nearly
6,700 individuals or businesses, and
over 1,224 civil actions.

The PCIE and ECIE have formed
strong alliances within the Inspector General community and, more important-
ly, with the U.S. General Accounting Office, the Department of Justice, the
Office of Management and Budget, and the Congress. Such cooperation is a
fundamental component of OIG endeavors and is critical to our success.

The Inspector General community is committed to carrying out the vision of
the Congress in establishing Inspectors General, adding maximum value to
federal programs and activities, and sustaining the close working relationships
that have served us well in the past.

To view the PCIE/ECIE report, please visit www.ignet.gov or contact the
Department of Education at (202) 205-9787.
       OIG Hotline
       The Office of Inspector General (OIG)
       Hotline is a convenient mechanism
       that employees, contractors, and
       others can use to report instances of
       suspected fraud, waste, abuse, and
       mismanagement within the FDIC and
       its contractor operations. The OIG
       maintains a toll-free, nationwide
       Hotline (1-800-964-FDIC), electronic
       mail address (IGhotline@FDIC.gov),
       and postal mailing address. The
       Hotline is designed to make it easy for
       employees and contractors to join with
       the OIG in its efforts to prevent fraud,
       waste, abuse, and mismanagement
       that could threaten the success of FDIC
       programs or operations.




Federal Deposit Insurance Corporation
     Office of Inspector General
                     Hotline
        801 17th Street, N.W.
       Washington, D.C. 20434




         To learn more about the FDIC OIG
         and for complete copies of audit and
         evaluation reports discussed in this
         Semiannual Report, visit our
         homepage:
         www.ignet.gov/ignet/internal/fdic




       Designed by FDIC/DOA/ACSB/Design and Printing Unit
